<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]


  
 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              


                        WEDNESDAY, APRIL 9, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:25 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Jack Reed (chairman) presiding.
    Present: Senators Reed, Leahy, Udall, Murkowski, Cochran, 
Hoeven, and Johanns.

                    ENVIRONMENTAL PROTECTION AGENCY

STATEMENT OF HON. GINA McCARTHY, ADMINISTRATOR
ACCOMPANIED BY MARYANN FROEHLICH, ACTING CHIEF FINANCIAL OFFICER

                 OPENING STATEMENT OF SENATOR JACK REED

    Senator Reed. I would like to call the hearing to order and 
welcome everyone here, particularly Administrator Gina 
McCarthy. Thank you. Gina and I understand each other because 
she has an accent similar to mine, and she is a devout Red Sox 
fan, so the rest is sort of nice, but not important.
    So thank you for being here. And she is joined by the 
Acting Chief Financial Officer, Maryann Froehlich. Thank you, 
Maryann.
    The President's fiscal year 2015 budget request includes 
$7.9 billion for EPA, and that amount is $310 million, or 4 
percent, below the fiscal year 2014 enacted level of $8.2 
billion. Regrettably, this is the fourth year in a row that the 
administration has set up a declining budget request for the 
Environmental Protection Agency (EPA), and I want to express my 
disappointment frankly. We worked awfully hard, Senator 
Murkowski and I, to ensure that there were adequate resources 
for EPA facing significant challenges. And again, the 
administration sent up a budget that rolls that progress back.
    In addition to cutting the Agency's budget this year, the 
Agency is proposing a workforce reduction that will bring EPA 
down to its lowest staffing since 1989, and we will talk about 
that. But despite the overall cut, the budget makes some 
important investments: dedicating $200 million to addressing 
the threat from climate change, and providing an additional $23 
million for chemical safety work that will reduce the risk with 
the exposure to chemicals. The budget request also includes $70 
million for an issue called
E-Enterprise, which will improve electronic data collection and 
availability for States and the regulated community.
    There are other encouraging fund increases. The request 
proposes $5 million for the geographic program to restore 
southern New England watersheds, and I thank the proposal for 
that. These funds will support the effort to protect, enhance, 
and restore the coastal watershed of southern New England, 
including Narragansett Bay and Rhode Island. The National 
Estuaries Program is funded at $26 million, an increase of $1.6 
million. And also an additional $76 million is provided for 
categorical grants to help States and tribes with their 
environmental problems and programs for a total of $1.13 
billion.
    Unfortunately, these very positive signs are undercut by 
the proposal with respect to clean water and drinking State 
revolving funds. Once again, I voice my strong disagreement 
with the proposed decreases to the State revolving funds. The 
largest reduction in EPA's budget request is to these funds, 
cutting them by $581 million, or 25 percent below the fiscal 
year 2014 enacted level. And if realized, this cut would 
translate into 32,000 fewer jobs and 270 fewer infrastructure 
projects nationally.
    This program is not only necessary to replace aging 
infrastructure and to create new environmentally sensitive 
infrastructure, but also directly cuts job creation. And I find 
that ironic because the President in February said one of the 
fastest and best ways to create new jobs is rebuilding 
America's infrastructure. And if we take this money, you impede 
the reconstruction of our infrastructure, and I am troubled to 
see this proposal, very troubled.
    And I believe the cuts to the State revolving funds will be 
a setback for the economy as well as the environment. This is 
one of those programs that is not just about environmental 
quality. That is central. But it is also about economic 
progress, and that is critical at this moment.
    So there is lots to discuss this morning, and again, I 
thank the Administrator. I commend the Administrator. She has 
brought extraordinary experience and dedication to her task, 
and she is someone that I respect immensely.
    With that, let me turn to the ranking member, Senator 
Murkowski, and ask her for any comments she might make.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman, and welcome, 
Administrator. Mr. Chairman, I want to follow on your comments 
about the State revolving funds for water. You and I have had 
an opportunity to discuss the significance of these programs. I 
was reminded just yesterday in a video teleconference with 
residents in the Yukon-Kuskokwim region, and a woman came to 
the microphone. She was from a small village called Kalskag, 
and she spoke specifically to the importance of Federal funding 
to help with water and sewer infrastructure.
    She said in her community of Kalskag, they still lack basic 
infrastructure. It is not like we are trying to build out 
existing; there is none. And it is a situation where in her 
village they are still using honey buckets, which basically 
means that they have got to haul their human waste and dump it, 
oftentimes very--clearly very unsanitary conditions. But she 
reminded me that in many parts of Alaska, we continue to live 
in third world conditions. And so, I share your concern about 
the significance of funding for our water projects.
    Ms. McCarthy, I thank you for your willingness to come to 
Alaska last August to learn about our State. I got good 
feedback from some of your meetings. I think Alaskans were 
impressed with your candor. You clearly demonstrated a 
willingness to listen, to really try to get a feel for the 
nature of our land and our people. I think that you saw that we 
have got some pretty unique needs and resources, which present 
us with some very diverse challenges. And, of course, the hope 
is that when you have an opportunity to come and see, there is 
a greater understanding, a greater appreciation of who we are 
in the places that we call home.
    And I think it is unfortunate that you made some comments a 
couple of months ago, some unfortunate comments that showed 
some insensitivity not only Alaskans generally, but more 
particularly towards Alaska native culture, and I do appreciate 
that you have apologized for your remarks. But I think it is 
important that you recognize that the way this was then 
interpreted by Alaskans was that this was just yet one more 
example of how folks in Washington, DC, do not get us, do not 
understand our way of life, do not understand the issues that 
are so critical between Federal agencies and a State like mine.
    And then we have hearings like this where the agencies say 
we understand it. We get it. But when given an opportunity to 
make good on the word, oftentimes we do not see evidence of 
that. There are rules after rules of that that come out, and 
sometimes we feel like we are either ignored or disrespected.
    So I want to make clear to you how some of the statements 
and actions are being interpreted back home because I think 
that that is important for you to include into your calculus. 
Alaskans are looking for collaboration from the agencies that 
have such a significant impact on our State. We are clearly 
ready to partner with the EPA to continue what we believe is a 
proud record of resource production and environmental 
protection. But unfortunately, rather than collaboration, we 
have been on the receiving end of what we believe to be a 
regulatory onslaught that threatens our economy and, in certain 
cases, our way of life. And I think that this budget proposal 
is no exception to that.
    Last year when Deputy Administrator Perciasepe appeared 
before the subcommittee, we discussed the fact that for several 
years running I have heard more complaints from Alaskans about 
the EPA than any other agency out there. And that trend is 
still continuing. I am sure that this is the case for other 
colleagues as well. The sheer number of proposed rulemakings 
coupled with the cost of compliance with the vast array of 
regulations already on the books and what at times are the 
unreasonable consequences of their enforcement is very, very 
frustrating to Alaskans and around the country.
    I could spend my entire time here talking about the many 
existing and proposed EPA regs that profoundly affect the 
livelihood of our families and our businesses, but one of the 
most troubling is the recent development with the EPA's 
proposal to change its application of the definition of 
``Waters of the United States'' under the Clean Water Act. EPA 
claims that this would clarify the law, but in reality it 
promises to drastically increase EPA's reach.
    I have described this as a potential showstopper for new 
development in Alaska. Roughly two-thirds of our State is 
already considered wetlands, and this rule could dramatically 
expand the lands subject to regulation. So it is not hard to 
see it as a continuation of this administration's unofficial 
policy of what I have described as protecting Alaska from 
Alaskans. But in this case when it comes to this particular 
rule, I would suggest that it also has very serious impacts 
across the rest of the country as well.
    I would also note my concerns with rules that are proposed 
or expected for new and existing power plants--methane 
emissions and hydraulic fracking, among others. I am concerned 
that EPA continues to regulate without appropriate coordination 
with other agencies and impacted industry. I think that this 
agency, above others, could jeopardize the affordability and 
reliability of our energy supply. If we are not careful, I 
think its rules could cost jobs and force us to forego 
opportunities to create new ones.
    It is not an overstatement to say that recent actions taken 
by EPA would fundamentally change our economy and the lives of 
the people we are here to represent. And so, for this reason it 
is all the more critical that we here in Congress diligently 
exercise our oversight role.
    I do look forward to our discussion during the hearing. And 
again, thank you for your willingness to serve.
    Senator Reed. Before recognizing the Administrator, does 
anyone have a brief statement? All written statements will be 
made part of the record.
    [No response.]
    If there are no opening statements by colleagues, without 
objection, all statements will be accepted into the record.
    [The statement follows:]
             Prepared Statement of Senator Patrick J. Leahy
    Administrator McCarthy, thank you for taking on one of the most 
important and challenging jobs in the United States. Your agency 
invokes a lot of strong reactions from the public, and certainly from 
Congress, but in its 43 year history the EPA has cleaned the country's 
drinking water, reduced our exposure to dangerous chemicals, and 
penalized polluters.
    Vermonters truly value the environment and the work of the EPA. 
From cleaner air, to conserving open spaces and wildlife, protections 
from exposure to toxic chemicals, to improving water quality and 
addressing climate change, I hear regularly from Vermonters about 
issues affecting all aspects of our environment.
    Right now, Vermonters are concerned about our ``great lake,'' Lake 
Champlain. They want and need a lake for swimming and fishing, and for 
drinking water. The Lake Champlain Chamber of Commerce can tell you 
that a clean Lake Champlain attracts businesses and tourists to the 
region. It serves as a major driver of the State's economy.
    Lake Champlain is, overall, very clean, but some sections of the 
Lake at some times of the year can become seriously impaired with 
nutrient pollution. For this reason, your agency is requiring a new 
restoration plan, and is working closely with the State to review a 
phase one draft at this time. As we discussed in person late last 
month, success of the new plan will hinge on having a full suite of 
tools available to address the major sources of phosphorus pollution in 
the Lake including farms, rural town roads, culverts, river channels, 
as well as small town stormwater and transportation infrastructure.
    I hope that the EPA, and this Committee, understands that we face a 
unique challenge for Lake Champlain, compared with other, more 
urbanized, areas of the country. We have a small rural population 
spread across a largely undeveloped landscape, something I know our 
ranking member can easily relate to. Pollutants reach the lake from 
thousands of small, non-point sources rather than from easily 
identified discharge pipes. This is not a problem that can simply be 
solved by investments to improve wastewater treatment plants. Those 
plants contribute only 3 percent of the total phosphorus in Lake 
Champlain.
    Instead, we must have a broad mix of common-sense policy tools and 
coordinated education, outreach, and funding assistance to a dispersed 
rural population. Vermont cannot afford to handle these tasks on its 
own. We will need to partner with every Federal agency from the Army 
Corps of Engineers, to Transportation, Housing and Urban Development, 
the Fish and Wildlife Service, the Department of Agriculture, and of 
course the EPA in order to succeed in this cleanup, and I thank you for 
your support of those efforts.

    Senator Reed. Thank you, Senator. Administrator McCarthy.

                SUMMARY STATEMENT OF HON. GINA MCCARTHY

    Ms. McCarthy. Thank you, Chairman Reed, Ranking Member 
Murkowski, and members of the committee. I appreciate the 
opportunity to discuss the Environmental Protection Agency's 
proposed fiscal year 2015 budget. As the chairman indicated, I 
am joined at the table by the Agency's Acting Chief Financial 
Officer, Maryann Froehlich.
    EPA's budget request is $7.89 billion for fiscal year 2015 
which starts on October 1, 2014. This budget meets the 
challenges of domestic spending constraints while still 
fulfilling our mission to protect public health and the 
environment. The fiscal year 2015 budget reflects EPA's plans 
to take advantage of new technologies and new regulatory and 
non-regulatory approaches. It recognizes that EPA is part of a 
larger network of environmental partners, and State, and 
tribes, and communities.
    This budget will provide the support for a smaller 
workforce by focusing on real progress and priority areas in 
communities, climate change and air quality, toxics and 
chemical safety, and clean water. We are asking for $7.5 
million and 64 staff in fiscal year 2015 to help provide green 
infrastructure, technical assistance for up to 100 communities 
to promote cost-effective approaches for water management.
    In addition, this budget request continues our 
environmental justice efforts. We will do more to partner with 
States, tribes, and local governments, and other Federal 
agencies. Funding for State and Tribal Assistance Grants, or 
STAG, is once again the largest percentage of EPA's budget.
    Addressing the threat from climate change is one of the 
greatest challenges of this and future generations. The request 
designates $199.5 million specifically for this work. The 
Agency has added $10 million and 24 full-time equivalents 
(FTEs) in fiscal year 2015 to support the President's climate 
action plan with $2 million designated for adaptation planning.
    The Agency will focus resources in the development of 
common sense and achievable greenhouse gas standards for power 
plants, the single largest source of carbon pollution. When it 
comes to cutting greenhouse gas emissions, the President's 
budget provides support for the States to help them implement 
the Clean Air Act.
    The EPA budget requests almost $663 million to support the 
work to improve chemical safety for all Americans and 
especially for our children. We are requesting $23 million and 
24 FTEs in fiscal year 2015 to support activities under the 
President's Executive order on chemical safety, as well as 
Agency efforts on chemical prioritization, air toxics, radon, 
and volatile, again, compounds in drinking water.
    The Nation's water resources are the lifeblood of our 
communities. We are requesting $1.775 billion for clean water 
and drinking water State revolving funds. The Agency is also 
directing $8 million and 10 FTEs to advance clean water 
infrastructure and sustainable designs like the Municipal 
Separate Storm Water Sewer System Programs for technical 
support to communities.
    E-Enterprise is a major initiative between EPA and our 
States to modernize our business practices, to get into the 
21st century, and to look towards the future. The benefits of 
implementing the e-Manifest system include annual savings 
estimated at $75 million for over $160,000 waste handlers.
    In fiscal year 2015, the Agency is requesting over $1.33 
billion to continue to apply effective approaches for clean up 
under the Resource Conservation and Recovery Act (RCRA) 
Superfund leaking underground storage tanks and other 
authorities. This strategy will ensure land is returned to 
beneficial use. $1.16 billion is requested for the Superfund, 
and you will see that it includes a $43.4 million increase from 
remedial work and an increase of $9.2 million for emergency 
response and removal.
    The fiscal year 2015 budget includes a total of $1.13 
billion for categorical grants. Within this total is over $96 
million for tribal general assistance grant programs, an $18 
million increase for pollution control, a $16 million increase 
for environmental information grants, and a $15 million 
increase for State and local air quality management.
    Lastly, science is the foundation of our work at EPA, and 
EPA is supported by the President's request of $537.3 million. 
Recognizing the importance of the two-year budget agreement 
Congress reached in December, the levels are appropriate for us 
to be requesting, but they are not sufficient to expand 
opportunities for all Americans and to really drive the kind of 
growth that we all would like to see. For that reason across 
the Federal Government, the budget also includes a separate 
fully-paid $56 billion initiative. Within this initiative is a 
Climate Resilience Fund, which includes $10 million for 
protecting and enhancing coastal wetlands, and $5 million to 
support urban forest enhancement and protection.

                           PREPARED STATEMENT

    Mr. Chairman, Chairman Reed, I thank you for the 
opportunity to testify, and I would welcome an opportunity to 
answer your questions.
    [The statement follows:]
                  Prepared Statement of Gina McCarthy
    Chairman Reed, Ranking Member Murkowski, and members of the 
subcommittee, thank you for the opportunity to appear before you to 
discuss the Environmental Protection Agency's (EPA) proposed fiscal 
year 2015 budget. I'm joined by the Agency's Acting Chief Financial 
Officer, Maryann Froehlich.
    EPA's budget request of $7.890 billion for the 2015 fiscal year 
starting October 1, 2014 reflects our ongoing efforts to meet the 
challenges facing the agency today and into the future. Despite these 
challenges, we remain dedicated to protecting public health and the 
environment, and we know we must target staff and resources and find 
new ways to fulfill our mission. We will focus those resources in a way 
that will allow EPA to be more effective and efficient.
    The fiscal year 2015 budget reflects a strategic approach to our 
budget planning process, looking toward the future rather than 
continuing to simply react to tough budget choices with cuts across the 
Agency. The fiscal year 2015 budget request does this in the following 
ways:
  --It reflects EPA's incorporation of new technologies and new 
        regulatory and non-regulatory approaches that can help us 
        maintain our efficiency and effectiveness.
  --It strengthens EPA's partnership with public health and 
        environmental protection partners in States, tribes and local 
        communities with a focus on aligning our resources, avoiding 
        duplication, and identifying and closing any gaps in the 
        broader environmental enterprise system.
  --It invests our funds and leverages funds of our partners where it 
        makes the most sense and gets the biggest bang for the buck.
    Following the framework of priorities laid out in the fiscal year 
2014-2018 Strategic Plan and working within our budget, we are 
committed to ensuring the staff we have in program areas and regions 
make the most sense and will have the most impact.
    EPA has already taken steps toward proactive management of our 
operating budget. Through the VERA/VSIP process, we have begun to 
accelerate attrition within EPA both at headquarters and the regions 
toward a ceiling of 15,000 nonrefundable full-time equivalents (FTE's).
    Our fiscal year 2015 budget relies on a reduced workforce focused 
on programs, policies, and regulations that matter most to public 
health and the environment. This is not simply about cutting the 
workforce to save costs. We are reshaping the workforce and our work to 
meet current and future challenges. Doing this includes making key 
investments.
    It makes long-term fiscal sense to invest the cost savings 
achieved--through a smaller workforce and improved use of technology--
to work smarter and more effectively. This approach will keep EPA 
strong, focused on science and the law, and transparent in addressing 
environmental challenges and the results we have achieved.
    This budget will provide the support we need to move forward by 
targeting real progress in priority areas: communities, climate change 
and air quality, toxics and chemical safety, and clean water.
    Building on current work on the ground in our communities, we are 
asking for $7.5 million and 64 staff in fiscal year 2015 to work toward 
efforts that will make a difference in people's everyday lives and in 
their communities. Those efforts include providing green infrastructure 
technical assistance for up to 100 communities that will promote cost-
effective approaches to water management.
    This budget request furthers our environmental justice efforts. The 
protections provided by our national environmental laws must be 
accessible to everyone. We will do more to partner with States, tribes, 
and local governments and other Federal agencies to better coordinate 
and leverage resources supporting community efforts.
    Addressing the threat from a changing climate is one of the 
greatest challenges of this and future generations. The request for 
climate change and air quality is $1.03 billion--over $41 million more 
than fiscal year 2014. And it designates $199.5 million specifically 
for climate change work.
    Building on existing efforts and base budget resources, the Agency 
has added $10 million and dedicates 24 FTE's in fiscal year 2015 to 
support the President's climate action plan. $2 million is designated 
for technical assistance for adaptation planning for water utilities at 
greatest risk from storm surges. Research and development efforts will 
focus on support tools for at-risk communities and tribes in preparing 
for the impacts of climate change.
    The Agency will focus resources on the development of common sense 
and achievable greenhouse gas standards for power plants--the single 
largest source of carbon pollution. The President's budget provides 
support for the States to help them meet their obligations under 
section 111 of the Clean Air Act with regard to cutting carbon 
emissions.
    This request also supports the President's interagency methane 
strategy and the President's recently announced directive to EPA to 
develop phase 2 fuel efficiency and greenhouse gas standards for heavy-
duty vehicles. EPA also will be implementing a range of activities in 
support of the President's call to cut energy waste in homes, 
businesses, and factories.
    Chemicals and toxic substances are prevalent in our everyday lives. 
The EPA budget requests almost $673 million to support work to reduce 
the risk and increase the safety of chemicals and prevent pollution for 
all Americans and especially children.
    We are requesting $23 million and 24 FTE in fiscal year 2015 to 
support activities under the President's Executive order on chemical 
safety, as well as Agency efforts on chemical prioritization, air 
toxics, radon, and volatile organic compounds in drinking water. $5 
million in resources for air toxics work will enhance our capabilities 
to design effective regulations and continue developing the national 
air toxics assessment.
    The Nation's water resources are the lifeblood of our communities. 
The fiscal year 2015 budget recognizes the long-term benefits of 
healthy aquatic systems for all aspects of our daily lives.
    The Agency is directing $8 million and 10 FTE to advance clean 
water. Resources are also proposed for the municipal separate storm 
sewer systems program for technical support to communities that must 
develop effective stormwater permits for the first time.
    We are requesting $1.775 billion for the clean water and drinking 
water State revolving funds (SRFs). Although this is more than a $580 
million decrease over fiscal year 2014 levels, Federal capitalization 
of the SRFs totals over $22 billion since fiscal year 2009, if you 
include the fiscal year 2015 request. The fiscal year 2015 budget seeks 
to ensure that Federal dollars provided through the fund lead to the 
design, construction, and support of sustainable water infrastructure.
    The EPA is looking toward future ways to better serve the American 
people by employing technology where it can be used more effectively. 
E-Enterprise is a major joint initiative between EPA and States to 
modernize our business practices and to increase responsiveness. This 
effort holds the promise of increased effectiveness and savings for 
businesses as well as government. The agency is expanding efforts in 
the second year of the multi-year E-Enterprise business model including 
focusing people and resources to accelerate development of the E-
Manifest system and associated rule-making work. For example, the 
benefits of implementing the E-Manifest system include annual savings 
estimated at $75 million for over 160,000 waste handlers. Transitioning 
from a paper-based system saves time and effort for every person who 
used to handle that paper.
    In addition, EPA is making changes to long-standing business 
practices such as contracts, grants management, and the regulation 
development process. One important area of emphasis is improving 
freedom of information act (FOIA) and records management.
    In fiscal year 2015, the Agency is requesting over $1.33 billion to 
continue to apply the most effective response approaches for cleanups 
under the Resource Conservation and Recovery Act (RCRA), Superfund, 
Leaking Underground Storage Tank, and other authorities. This strategy 
will help ensure land is returned to beneficial use in the most 
effective way. $1.16 billion is requested for Superfund which includes 
a $43.4 million increase for remedial work and an increase of $9.2 
million for emergency response and removal.
    In this budget, we hold firm our priority support for State and 
tribal partners, the primary implementers and front line of 
environmental programs. Funding for State and tribal assistance 
grants--or STAG--is once again the largest percentage of the EPA's 
budget request and prioritizes funding for State categorical grants.
    The fiscal year 2015 budget includes a total of $1.13 billion in 
categorical grants--a net $76 million increase over fiscal year 2014.
  --Within that total is over $96 million for tribal general assistance 
        program grants--a $31 million increase over fiscal year 2014.
  --We also included an $18 million increase for pollution control 
        (section 106).
  --There is a $16 million increase for environmental information 
        grants.
  --There is a $15 million increase for State and local air quality 
        management in our request.
    Science is the foundation of our work at the EPA. And science is 
supported by the President's request of $537.3 million. In fiscal year 
2015, the EPA is focusing research on the most critical issues facing 
the Agency.
    These include efforts to: advance chemical prioritization and 
predictive toxicology, help communities make sustainable decisions 
regarding environmental protection and resilience, and inform regional 
and community level strategies for the use of green infrastructure and 
other innovative alternative practices.
    The EPA continues to focus on reducing its physical footprint and 
achieving greater energy efficiency. Since 2006, the EPA has released 
approximately 428 thousand square feet of space nationwide, resulting 
in a cumulative annual rent avoidance of over $14.6 million.
    The EPA continues to eliminate programs that have served their 
purpose, accomplished their mission, or are duplicative. The fiscal 
year 2015 budget eliminates a number of such programs totaling nearly 
$56 million. These include beaches protection categorical grants, State 
indoor radon grants, and diesel emissions reductions assistance grants.
    Recognizing the importance of the 2-year budget agreement Congress 
reached in December, which the President's budget adheres to, levels 
are not sufficient to expand opportunity to all Americans or to drive 
the growth our economy needs.
    For that reason, across the Federal Government, the budget also 
includes a separate, fully paid for $56 billion opportunity, growth, 
and security initiative. This initiative--split evenly between defense 
and non-defense funding--shows how additional discretionary investments 
in fiscal year 2015 can spur economic progress, promote opportunity, 
and strengthen national security.
  --Within the initiative is $1 billion for a climate resilience fund, 
        through which the budget will invest in research and unlock 
        data to better understand and prepare for impacts of a changing 
        climate. These investments will also fund breakthrough 
        technologies and resilient infrastructure.
  --Within the climate resilience fund, EPA will support a nation 
        better prepared for the impacts of climate change--with $10 
        million for protecting and enhancing coastal wetlands, and $5 
        million to support urban forest enhancement and protection.
    We have made some very difficult choices in this budget. But we 
need to look realistically at challenges we face in the future and make 
sure we have the best tools and people in the right places to make the 
most difference. Our final fiscal year 2015 budget reflects a balanced 
approach to accomplishing this.
    Thank you for the opportunity to touch upon some of the highlights 
of EPA's fiscal year 2015 budget request in my testimony today. I look 
forward to answering your questions.

    Senator Reed. Thank you very much, Madam Administrator. I 
will yield my time to Senator Leahy because he has to chair the 
Judiciary Committee at 10:00 this morning. Senator Leahy.

                   LAKE CHAMPLAIN GEOGRAPHIC PROGRAM

    Senator Leahy. Mr. Chairman, I appreciate the courtesy very 
much. And, Administrator McCarthy, we recently met in my 
office, but we have also, even more importantly, met at the 
celebration with the Red Sox at the White House.
    I have put a full statement in the record. It speaks about 
the EPA's geographic programs, and it speaks about Lake 
Champlain and what we have been doing to try to clear that up. 
This is the largest body of fresh water in the United States 
outside of the Great Lakes and borders New York State, Vermont, 
and Canada.
    The Federal funding for Lake Champlain that has been cut by 
more than 60 percent over the past 4 years just as we are 
undertaking a comprehensive lake restoration plan. So my 
question is, how can EPA better support and be involved with 
the work of the Lake Champlain Basin Program, which for 20 
years has convened all the Federal agencies working to restore 
and protect Lake Champlain. And how can EPA help to make the 
case to support Federal funding for the kind of assistance we 
need to do that restoration? And I know we have talked with the 
Governor and everybody else on that.
    Ms. McCarthy. Well, Senator Leahy, first I want to thank 
you for your leadership on recognizing as you do the value of 
Lake Champlain and how important it is to the region and to 
your State in particular. I know EPA shares your recognition of 
that value.
    We are going to be working pretty hard as a follow-up to 
the meeting. The concern is that we are in the process of 
working together on a Total Maximum Daily Load (TMDL) and 
getting that implemented, but all of these things do carry some 
costs associated with it. So we are working with our own EPA 
offices to look at how we can be more supportive, as well as 
look across at other agencies in the programs and the Federal 
funding that is available.
    But we will be following up with you, and we will do 
everything we can to make sure that we can work with you to 
restore Lake Champlain and maintain its beauty, resilience, and 
the economic vitality it brings to your region.
    Senator Leahy. Well, it has been authorized at $11 million 
per year. The need has never been greater than what it is going 
to be in 2016.
    Ms. McCarthy. Yes.
    Senator Leahy. I would hope the EPA would support a larger 
funding request for the Lake Champlain Geographic Program in 
2016. We absolutely need it. It is one of the things we do not 
ever want to get into the position, for example, that Lake Erie 
did decades ago where they had much of the same headwaters in 
nature in their lake. And it became so polluted that one of its 
tributaries, the Cuyahoga River, caught fire. Here is a river 
on fire for a couple of days before they could put it out.
    We are at a point with a beautiful, pristine lake that we 
can keep it that way, but it is going to take some real 
efforts. So please work with us to request more money for that 
area.
    Ms. McCarthy. We are happy to work with you, Senator.

                     NATIONAL RESILIENCE TASK FORCE

    Senator Leahy. You know, in 2011 we had a catastrophic 
flood in Vermont that dumped nearly as many tons of polluted 
sediment into Lake Champlain in a matter of hours that we 
normally would see in a year or more. So I might ask, how will 
the proposed budget request for climate resilience support with 
our work in protecting Lake Champlain, particularly since EPA 
has mandated the new TMDL will be one of the first in the 
Nation required to account for climate change aspects?
    Ms. McCarthy. Yes. Well, our work on resilience is multi-
faceted, and it is across the administration. Very directly, I 
know that the good folks in Vermont have been very closely 
working with the States that experienced the damage from 
Hurricane Sandy. They have been helping to advise us on how you 
respond to those challenges, as well as prevent them in the 
future.
    We have funds set aside to work with a number of 
communities, not only to look at resilience, but how that 
relates to green infrastructure and our opportunity to look at 
our waste water and water quality changes and our storm water 
challenges differently. We also have a National Resilience Task 
Force that the President has pulled together, and that is an 
opportunity to learn from across the country about the efforts 
that are underway to adapt to a changing climate.
    Each of the agencies, including EPA, has also developed 
their own adaptation plan so that while Vermont may be first, 
you are not going to be the last. We are going to look at 
actually how State Revolving Fund (SRF) funds can be better 
informed by the changing climate that we see.
    So there are a number of efforts underway, Senator, and we 
are very serious about working with communities to see how we 
can help them stay safe in a changing climate.

                       STATE REVOLVING FUND FUNDS

    Senator Leahy. A lot of these efforts cost money. The EPA 
budget seems to be a more and more bare bones request each 
year. For example, the grants to States for the Clean Water 
State Revolving Fund has been cut by $431 million. The Drinking 
Water State Revolving Fund, the Geographic Program, EPA cut 
that by $14.6 million. In a little State like ours, that 
clobbers us.
    Ms. McCarthy. Yes, it is very difficult, Senator. There are 
some decisions that have to be made. I think we can all agree 
that the SRF is one of the most important to maintain health 
protections for our communities. We have done, I think, a good 
job over the past 5 years to really provide significant 
resources for these efforts.
    We again did the best job that we could in the 2015 
proposal to continue with that and to also recognize that the 
States have significant money available to them from the 
already-existing State revolving funds. We are hoping that the 
money that the States have available on this will be sufficient 
to continue to maintain progress moving forward.
    Senator Leahy. We will keep working on this.
    Ms. McCarthy. We will.
    Senator Leahy. And I appreciate your willingness to keep 
talking with us. But we do have a very critical moment in our 
State. And, Mr. Chairman, thank you very, very much for your 
courtesy.
    Senator Reed. You are entirely welcome, Senator. Senator 
Murkowski.
    Senator Murkowski. Mr. Chairman, thank you. I am going to 
yield to my colleague who also has to go chair another 
Appropriations Committee hearing.

                              FOREST ROADS

    Senator Cochran. Mr. Chairman, thank you very much. And 
thank you to the Senator from Alaska.
    Let me ask you about forest roads. The U.S. Forest Service 
lands in our State of Mississippi, there have been some recent 
changes from EPA's decisions regarding forest roads as a point 
source of pollution and thereby requiring the filing of 
compliance with regulations or looking to other agencies 
besides the U.S. Forest Service for regulations in this area. I 
raise this because in my State we have some U.S. Forest Service 
lands, and logging is permitted, and has enjoyed an exemption 
really in many cases from the filing of compliance information 
with EPA.
    I would just ask you to look into that and be sure that it 
has not been abused or over zealously restricted the use of 
forest roads, which has been a tradition in the Forest Service 
by anybody, EPA included, in maintaining healthy forests. So I 
am hopeful that maybe you can work that out among the two 
agencies and come out with a solution that recognizes 
legitimate interest of the logging community.
    Ms. McCarthy. I will, Senator. This issue should have been 
resolved when we revised our storm water permitting program to 
recognize that you do not need National Pollutant Discharge 
Elimination System (NPDES) permits for those roads. If, in 
fact, we are also still continuing our interest in this in 
other ways, I will get on that right away, and we will make 
sure we work something out that is reasonable and appropriate.
    Senator Cochran. Thank you very much for that assurance. 
Thank you, Mr. Chairman. Thank you.
    Senator Reed. Thank you very much, Senator Cochran. I will 
recognize Senator Udall now, and then return to my colleagues 
on that side of the aisle.

                   ABANDONED URANIUM MINES SETTLEMENT

    Senator Udall. Thank you, Chairman Reed. And I was pleased 
to see the announcement that the U.S. Government has entered 
into a settlement to clean up toxic remains of abandoned 
uranium mines on the Navajo Nation and elsewhere in the 
country. This is the largest environmental settlement, Madam 
Administrator, as you know, largest environmental settlement in 
history. And $1 billion of that will go towards clean up of 
abandoned uranium mines and mills on the Navajo Nation.
    Let me first say that I think this is really important 
progress, and it is a vindication of the polluter pays 
principle, which I think is a good, solid free market 
principle. For too long private industry and the Federal 
Government failed to ensure the safety of uranium miners, their 
families, and people affected by the hazards of exposure to 
radioactive materials.
    Uranium mining companies emerged overnight, left a legacy 
of sickness and contamination, and then tried to walk away 
leaving others to foot the bill. The Navajo Nation fought hard 
for fairness and settlement, and this settlement helps to right 
a historic injustice to the Navajo people and the surrounding 
communities, and I think will restore the environment.
    This is a big step forward, but we should remember we still 
do not know the full scope of the contamination. This remains a 
monumental injustice, and I want to work with you closely to 
follow the progress of the cleanup conducted with these funds 
to help the Navajo Nation until we are all satisfied that the 
job is done.
    So let me ask, have plans been developed already on how to 
use this settlement money, and when can we expect to see them, 
and when we will see new cleanup activities on the ground in 
the Nation using these funds?
    Ms. McCarthy. Well, Senator, first let me thank you for 
raising this. I am pretty proud of this settlement and the work 
that our enforcement staff did on this as well as the 
Department of Justice (DOJ). $4.4 billion dedicated to cleaning 
up hundreds of contaminated sites is quite an accomplishment.
    The settlement was just announced. The court has to approve 
the settlement. There is a 30-day public comment period 
associated with that. We are very confident that the court will 
approve it, but it has to go through that step. We already have 
trusts established to transfer these funds so that they should 
become readily available in the shortest time possible.
    Senator Udall. And you are looking at doing that planning 
that needs to be done so after the court approves it, we can 
get the funds in the right hands.
    Ms. McCarthy. Absolutely.
    Senator Udall. Good.
    Ms. McCarthy. We have been working on these issues, and, in 
fact, 50 abandoned uranium mines are on our agenda to be one of 
the first orders of business in the Navajo Nation. So we are 
very excited.

                     WASTE ISOLATION PILOT PROJECT

    Senator Udall. Yes, that is great. Well, thank you. And as 
I said, I think this is historic, and I think it is going to 
make a big difference to the Navajo Nation and to many places 
where you have this uranium contamination.
    I wanted to ask you also about the Waste Isolation Pilot 
Project (WIP), and I would like to thank you, Janet McCabe, and 
Ron Curry for the important EPA presence in Carlsbad to add 
additional independent air monitoring and personnel. I 
appreciate that many in your Agency have made it clear that the 
radioactive releases from WIP have been at levels that are a 
public health danger. And I am hopeful that your monitoring and 
verification will continue to support that.
    Unfortunately, the facts are that two accidents have 
happened at WIP that were not supposed to happen, a fire in a 
mine and a radiological release. The Department of Energy (DOE) 
oversight has already been found to be lacking, and that is why 
it is important to the community that an independent public 
health agency like EPA be on the ground overseeing the recovery 
phase to ensure public health is protected. Can you give me an 
update on the EPA's arrival at WIP and their planned activities 
there? My understanding is that personnel arrived this week to 
coordinate their monitoring with the reentry of WIP.
    Ms. McCarthy. That is right. EPA's main job in this is to 
ensure that we are looking at any level that could have been 
exceeded in terms of protectiveness to the outside so that 
surrounding communities are aware of any concerns. We are 
monitoring that.
    So far, it looks like any release has been far below any 
levels that are necessary for protection, but we are there. We 
are on the ground. As you know, our region is doing a great job 
working with DOE because we know people have concerns. This is 
a big deal. So we have added our own monitors to DOE's. We are 
going to be monitoring independently so that we can verify 
those results. We can assure folks that we are doing the right 
thing and they have the information available to them that they 
need.
    Senator Udall. Thank you very much. And I cannot tell you 
how much it has been welcomed in the community that you are 
there and doing this monitoring. I think it has brought a 
comfort level in terms of health and safety to the community 
that we have the EPA being an independent monitor of these 
radiation releases. So I thank you for that.
    I just wanted to mention one thing before my time runs out 
here. Our State Environment and Health Department has brought 
to my attention a concerning reduction in the EPA budget on 
radon. And so, we want to work very closely with you on that as 
we go through the budgeting process with Chairman Reed.
    And I thank you again for all the things that you are 
working on. Very much appreciate the New Mexico presence. Thank 
you. And thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator. Senator Murkowski.

                              PEBBLE MINE

    Senator Murkowski. Thank you, Mr. Chairman. Ms. McCarthy, I 
want to start my questions with an issue that Alaskans have 
really been buzzing about, and this is the issue of the Pebble 
Mine. When you were up in Alaska, you had an opportunity to go 
out to the region. You spoke with people.
    I have reserved judgment on the potential Pebble Mine 
waiting for the project developers to present an official plan 
and then seek the permits for it. EPA has decided not to wait, 
and has instead initiated this process that could very well 
lead to the first ever preemptive veto under 404(c) of the 
Clean Water Act.
    So my questions to you this morning are in a certain part 
related to timing here. Do the folks at EPA believe that they 
know exactly how the Pebble Mine would be developed?
    Ms. McCarthy. I think that we are well aware of the 
Security and Exchange Commission (SEC) filings that indicate 
how the Pebble Mine intends to develop. However----
    Senator Murkowski. But we have not seen any permits. We 
have not seen any application.
    Ms. McCarthy. That is correct.
    Senator Murkowski. We have not seen the definition of that 
plan. So is it not accurate, though, that EPA would still be 
able to veto the project once details and specifics are 
actually permitted? You do not lose that ability to veto later.
    Ms. McCarthy. That is correct.
    Senator Murkowski. And so, I guess my question has always 
been, why not wait until we know what the specifics and what 
the criteria are before you move to effectively veto? And 
again, a preemptive veto is--this would be first ever.
    Ms. McCarthy. Senator, without getting into the history of 
the use of 404(c), I want to assure you that what we have done 
here is to take a first step in this conversation. We have not 
made any decision.
    Senator Murkowski. I understand.
    Ms. McCarthy. And so, one of the, I think, good things 
about the 404(c) process that we have just taken a first step 
on is a first step is to talk to the company. It is to talk to 
the Army Corps and to the State to understand the scientific 
concerns, we have identified about this unique place. As we all 
know, its beauty as well as its importance in terms of the 
world's largest sock-eyed salmon fishery, and the extent of the 
mine given how deep the ore is and how low grade it is. What 
kind of lodge transition that area would go through is how we 
make sure that we are going to protect it.
    We do have an option to wait, but we were petitioned and we 
felt that given the science, it was really worthy of a unique 
response, which is to try to get at these issues more quickly 
given the uncertainty it has raised for the tribes, for the 
regions, for the economy in that area, and that it was worth at 
least exploring and going through the public process associated 
with it.
    Senator Murkowski. Well, and, again, I appreciate you 
outlining that. But I guess I would ask you to put on a 
different hat rather than as head of the EPA. Look at it from 
the investor's perspective. You are--as an investor, you are 
now asked to consider the fact that EPA may choose to veto a 
project either before, during, or after, maybe even years after 
it seeks and receive permits. Why would anybody choose to put 
the money out? You mentioned the uncertainty to the tribes, but 
you have got a situation where you are effectively stopping any 
potential for development before the idea can really get off 
the ground if you have this notion that you could preemptively 
veto it before permits come in, during such time as you are 
constructing, or even afterwards. So how are we promoting 
certainty here?
    Ms. McCarthy. Well, I think that the Pebble Mine and its 
investors are well aware of the authority EPA has here. I think 
the most important thing we wanted to do was after you complete 
a scientific assessment and it shows the potential impacts from 
a mine of this magnitude in that special area----
    Senator Murkowski. But again, it is a definition that we 
have not seen yet because no permits have been filed. No 
application pending. You can see the concern from the investor 
side, I hope, as well as from the folks on the ground, how we 
balance this.
    Ms. McCarthy. Yes.
    Senator Murkowski. But if we have a process that does not 
allow for certainty along the way, it is pretty difficult to 
entice anybody to come in and put the dollars up front that 
would allow for a project, allow for economic development 
within the region, and allow for jobs and opportunities.
    Ms. McCarthy. Well, Senator, I do not think that our intent 
is to create more uncertainty. Our intent is to actually have 
the conversations we need. If the company is ready for the 
permit application, they are still free to submit, and we would 
encourage that. But right now, you have a science document that 
we think deserves to be looked at and to be discussed with the 
company.
    We also want to make clear that this is a very unique 
circumstance, both what we believe to be such an 
extraordinarily large mine in such a unique area, that this is 
not a change in EPA's operating procedure. It is an 
opportunity, I hope, to have the conversations that will 
provide the certainty that the company is looking for and the 
investors are looking for as well.
    Senator Murkowski. So you are not planning on exercising a 
preemptive veto then.
    Ms. McCarthy. I have no idea what the end point of this 
discussion is because it is a process that begins with a 
conversation. If that conversation indicates that concerns 
remain, it can then go to a public process, and so it is an 
extensive public dialogue. And I think that that is what is 
deserved at this point.
    Senator Murkowski. Well, I think you are aware that just at 
the beginning of this week, one of the investors, one of the 
principals, has chosen to convey their interest in the mine to 
not only Bristol Bay Economic Development Corporation, but to a 
community foundation. And part of the reason for this was a 
recognition that there is so much uncertainty that their 
ability to, whether it is to find additional resources or to 
really continue in the project, have been compromised.
    And so, whether this is intended or unintended, and many in 
Alaska believe that it is intended by the EPA, that this very, 
very strong signal that the Agency could come in at any point 
before, during, or after and pull those permits, it would be a 
pretty speculative investment on anyone's behalf to continue 
on.
    Mr. Chairman, my time has expired. I will have an 
opportunity for others when we resume second round.
    Ms. McCarthy. Thank you, Senator.
    Senator Reed. Thank you very much, Senator Murkowski. Madam 
Administrator, let me go back to the--no surprise--the State 
revolving funds.
    Ms. McCarthy. Yes.

                          STATE REVOLVING FUND

    Senator Reed. Over the last 5 years, the administration has 
sent up a budget each year, that reduces their request. Working 
closely with Senator Murkowski and my colleagues, we have 
restored funding and kept our commitment to States and 
localities. Again, this year, rather than simply meeting what 
we did last year, which would be some progress on the side of 
the administration, they again are suggesting a 25 percent cut. 
EPA's own estimates suggest that over the next 20 years, we are 
going to need in the order of over $600 billion for 
infrastructure needs. And at the rate we are going, we will 
never get there, and every year it will get worse and worse and 
worse.
    And we all recognize, too, that the nature of these funds, 
there is State leverage. It is a revolving fund. Some money 
comes in, some goes out. It is one of the most efficient ways 
to build in this country. And it is just baffling to see the 
administration ignore this at a time when every part of this 
Nation--Senator Murkowski spoke about the need to get plumbing 
out literally to some of her constituents. In my situation in 
Massachusetts and Connecticut, it is trying to repair sewer 
systems that are over a hundred years old in many cases, here 
in Washington, DC, even. So it is just inexplicable that we 
have to again start not from where we were last year, but a 25 
percent reduction. So simply, how are we going to do this?
    And the final point, everyone here is talking about jobs 
because that has to be our number one priority, and either 
creating them or doing things to avoid their inhibition. This 
program, it is very straightforward. The estimate is about 
30,000 people working, and these are good jobs. These are 
technicians and people who are skilled in terms of installing, 
designing. We also have provisions in Buy America in the last 
appropriations bill, which requires that the materials now are 
going to be produced here in the United States.
    Again, I find it baffling that the administration would 
send up this budget and you would come up and sort of say, 
well, everything is fine. So can you explain, please?
    Ms. McCarthy. Sure. Senator, all things being equal, I 
would love to have given a budget that was much larger on SRF, 
but we had choices to make, and the President was respectful of 
the bipartisan agreement that was reached.
    The one sort of emphasis I want to place on this is the 
fact that I do not want you to think that the investment in 
infrastructure is limited to what EPA is putting in in terms of 
new dollars. We do anticipate that somewhere in the order of $6 
billion will be invested between EPA and State dollars as a 
result of the State revolving fund. It is an incredibly 
valuable and important program, but it competes against the 
many other dollars that we are trying to support States in our 
categorical grants and tribes as well in local communities. We 
are doing our best to try to, you know, manage the demands on 
the agencies in a way that will continue to allow EPA to 
function appropriately and operate.
    These are very difficult decisions, and everyone will have 
certainly their say. And you will finally on what you think is 
most appropriate to do, and I respect that.

                             CLIMATE CHANGE

    Senator Reed. Well, thank you. Working with my colleagues 
as we have done in the past, I can tell you, my intent is to 
change this so that we put more resources into the SRF than 
your budget calls for. It will translate into a modest step in 
terms of the overall infrastructure problem we have, and also 
it will put people to work.
    Let me pursue an issue that came up in the context of some 
of your previous responses, and that is how is the climate 
change issue, the monies that you might have there, together 
with the President's Opportunity Growth Security Initiative, 
might be able to leverage additional support for water and 
sewer infrastructure.
    Ms. McCarthy. That is a really good question, Mr. Chairman, 
because I know that we have funding that is dedicated towards 
climate resilience in this budget. We also have funding that is 
dedicated towards green infrastructure. We have worked with 
some of the larger urban areas on our combined sewer work. All 
of those will be coordinated in a way that will provide 
additional resources to communities and allow them to identify 
in the case of green infrastructure opportunities to not only 
recognize that storm water demands are changing with a changing 
climate, but there are less expensive ways that allow them to 
stretch their dollars that are being expended on water and 
waste water infrastructure in a way that increases the 
protectiveness as well as lowers the cost.
    Now, this is not a panacea, but it is a way of trying to 
stretch those dollars effectively. We will be coordinating all 
of those efforts with the States as we move forward.
    Senator Reed. Well, thank you, Madam Administrator. And I 
think it is clear, at least I think you know where I am coming 
from----
    Ms. McCarthy. I do.
    Senator Reed [continuing]. When it comes to this State 
revolving fund issue. Let me recognize Senator Johanns.

                          AERIAL OVER FLIGHTS

    Senator Johanns. Thank you, Mr. Chairman. Administrator 
McCarthy, let me start today on a positive note, if I could. 
Before I came over to this hearing, cattlemen were in my 
office, and they wanted me to express to you that they 
appreciate what they feel is a more open environment to the 
EPA, and I know you are working on that communication. And they 
feel good about the fact that they at least get a chance to be 
at the table. So I thank you for that, and want to express 
their appreciation.
    Let me, if I might, now ask you a question about actually 
the omnibus appropriations bill that funded the Government for 
2014. There was language directing the EPA to file a report 
with this committee within 180 days, and it required the amount 
of funding spent to contract for aerial over flights, the 
contractor doing the work, number of flights performed, 
geographical areas including county and State, fiscal year that 
the number of enforcement actions was utilized, and there were 
some other requirements.
    But let me just ask you, do you anticipate any problems in 
meeting the requirements of that language, number one. And, 
number two, do you anticipate any problems in doing it within 
the 180 days that is specified in that legislation?
    Ms. McCarthy. Senator, first of all, thank you for the 
message from the Cattlemen's Association. I am actually meeting 
with them tomorrow.
    Senator Johanns. Yes, I know that, and that is good.
    Ms. McCarthy. So that will be great. On the aerial over 
flights, I am aware that language was inserted into the budget 
or a report. I am not sure which it was. But we are certainly 
going to be complying with that to the best that we can. I can 
certainly get back to you in advance of that if we see any 
particular problems.
    Senator Johanns. That would be appreciated. This is 
something I have been working on, as you know, for an extended 
period of time. I just want to know what we are doing here.
    Ms. McCarthy. I understand.
    Senator Johanns. And my hope is that there will not be any 
issue, that compliance will be timely, and it will be done as 
required by the legislation. So I would ask you to reach out to 
me and, for that matter, the committee and let us know how you 
are doing on that.
    Ms. McCarthy. That would be fine.
    Senator Johanns. We will be paying attention.
    Ms. McCarthy. I am more than happy to do that, Senator. I 
know this is an issue of great interest to you.

                      WATERS OF THE UNITED STATES

    Senator Johanns. Yes. Let me ask you, if I might, a 
question or two about this issue of Waters of the United 
States. And I must admit how this was done I find to be 
somewhat confusing, and maybe you can fix that. Maybe you can 
clarify what is going on here.
    As I understand, you put the roll out that was intended to 
clarify Waters of the United States, the proposed rule. And 
then at the same time, there was issued a--it is entitled U.S. 
Environmental Protection Agency and U.S. Department of Army 
interpretive rule regarding the applicability of the Clean 
Water Act such and such and such.
    The reason why I find that confusing is that the rule comes 
out--the proposed rule, then you have this interpretive 
document. But my understanding of the interpretive document is 
that you could change it this afternoon if you wanted to. You 
do not have to go through any kind of rulemaking process. Why 
would you not take what is in that interpretive document and 
put it into the proposed rule, and are you considering that in 
terms of the final product?
    Ms. McCarthy. Well, let me explain a little bit for those 
who may not be following it as closely. The Waters of the 
United States was really a rule to try to clarify the 
jurisdiction of the Clean Water Act. It was on the face of some 
decisions by the Supreme Court which really called into 
question earlier decisions by EPA. We wanted to make sure that 
we provided some solid ground.
    One of the things we did in this was to really work closely 
with the U.S. Department of Agriculture to identify the best we 
could not just the fact that we were maintaining all of the 
agricultural exemptions that were currently in place, those not 
in question, was to make sure that we saw over time that the 
farm practices that were exempt under the Clean Water Act were 
constantly evolving, and the U.S. Department of Agriculture 
(USDA) had tremendous expertise in conservation practices, that 
we thought we could give a nice boost in the arm to, and at the 
same time clarify these farm practices in a way that did not 
limit the exemptions, but limited the questions that were 
coming up about what were legitimate farm practices.
    So we not only took the exemptions, but we developed this 
interpretive rule that identified 56 farm practices working 
with USDA so that if these farm practices are what you are 
doing, you did not need to ask a single question about whether 
they were exempt. You knew they were. And so, we tried to do 
that in a way that would allow us to expand on those.
    It is really a collaboration between the USDA and us, and 
hopefully the agriculture community when they see this as an 
ability to allow farmers to do farming, and to not have to ask 
permission, and to farm with more confidence, and to run their 
ranches with more confidence. So, we will work through these 
issues. If people think we did not get it right, I am fine with 
that, but just because it is not on the list, it does not mean 
it narrows the exemptions. The list is an attempt to say if you 
are on here, you do not even to ask whether it is a farm 
practice that is exempted.
    We thought we were doing something really good. If in the 
end people do not think it is the right strategy, we can 
certainly rethink this because it is a proposed rule. I am 
there tomorrow to ask questions and to see how people are 
thinking about it.
    Senator Johanns. Yes. I have already run out of time. So 
many questions.
    Ms. McCarthy. I am sorry. I did not mean to take all your 
time.
    Senator Johanns. No, so many questions, so little time. But 
if I might, as you know, you have farm groups already who are 
weighing in expressing concern about the proposed rules, et 
cetera. I think this is an opportunity. I think you think it is 
an opportunity to say to the farm groups, hey, we are 
listening. We are hearing what you are saying. We want to get 
this right for you. We want to clarify.
    And I think if you just delivered a message for the next 
weeks saying, hey, this not permanent ink on the paper, what we 
are trying to do and what we are willing to do and want to do 
is circle back with you to get your impression as to whether we 
get this right or not. And if you do not think we did, tell us 
what direction you think we should be going. I think that would 
be enormously reassuring.
    Ms. McCarthy. Senator, we have gone--I appreciate that, and 
I totally agree with you. I will be out and about not just in 
DC, but we also had a really good meeting with stakeholders in 
our Office of Water Leadership. What we offered to do was 
instead of just getting together every once in a while, would 
develop some workshops and look at specific areas of concern so 
that all the issues could be on the table. We could figure out 
how to collaborate more effectively. I really want this rule to 
work for the agriculture community.
    Senator Johanns. Okay. Thank you, Mr. Chairman. I 
appreciate your patience.
    Senator Reed. Thank you, Senator. Senator Hoeven, please.
    Senator Hoeven. Thank you, Mr. Chairman, and thank you, 
Administrator, for your recent visit to North Dakota. I want to 
pick up on the Waters of the United States proposed rule that 
Senator Johanns was just asking you about.
    Our farmers are very concerned about this. I want to 
emphasize that. Farm groups and our farmers. I was just back in 
the State, and they are very, very concerned that you are 
extending the reach of EPA beyond navigable waters to anything 
that you determine has significant nexus, which we have no idea 
what that means or how far now you are going to extend EPA 
reach and authority. And when you talk about legitimate farming 
practices, our farmers think they know what those are, and they 
are very concerned that now EPA is going to weigh in and start 
trying to make that decision.
    So this is of immense concern to the ag community. And how 
are you going to assure us that private property rights are 
going to be protected as you work to extend the reach of EPA 
beyond what has traditionally and historically always been 
navigable bodies of water?
    Ms. McCarthy. Actually, Senator, we will do everything we 
can to walk through this rule, and to listen to all the 
comments, and to try to walk through the history of what the 
Clean Water Act is supposed to do.
    The Clean Water Act is supposed to protect navigable 
waters. We did not define the jurisdiction of protecting 
navigable waters to just navigable waters. It is all of the 
streams and tributaries that can actually significantly impact 
the integrity of navigable waters. That has always been part of 
the jurisdiction of the Clean Water Act, and we are not 
changing that.
    But what we are doing is paying very careful attention to 
what the Supreme Court told us about it is not just enough to 
be hydraulically connected to navigable waters. You have to 
really have an ability to significantly impact the integrity of 
those waters in order for a permit to be required. So we are 
really trying to pay attention to that, narrowly crafted to 
what the Clean Water Act said, and to pay attention to the 
science.
    Our intent is to stick with what we have historically 
regulated under the act, do what the Supreme Court said, and 
hopefully do a little bit more to the agricultural community to 
provide them the certainty that they are looking for.
    Senator Hoeven. I think there is going to be significant 
disagreement on whether or not you are, in fact, extending your 
authority here depending on what you do with this significant 
nexus determination.
    Ms. McCarthy. Nexus, right.

                         AGRICULTURAL COMMUNITY

    Senator Hoeven. Going back to what you just talked to 
Senator Johanns about, we need some kind of process for the ag 
community to weigh in here. So you need to build it with USDA 
wherein stakeholders have opportunity.
    Ms. McCarthy. Absolutely.
    Senator Hoeven. If we are going to do what you just 
described, this needs significant involvement and input from 
the agricultural community. How do we accomplish that?
    Ms. McCarthy. Well, I just indicated that we have already 
had many meetings, and we are going to have some workshops 
around this. If there are other suggestions, Senator, I am open 
to them. I know that there is concern about this, but there is 
also an indication to--well, let me just say it clearly. There 
is a distrust between agriculture and EPA, and when we say one 
word and it can be taken well, it might be taken exactly the 
opposite. We need to work on that as a whole, and we need to 
get the language correct so that you are certain that we are 
doing the right thing here. We will work hard to do that.
    Senator Hoeven. When do you anticipate finalizing the rule?
    Ms. McCarthy. I cannot tell you exactly, Senator. We are 
going to take whatever time it takes to get this right. But we 
generally would look for about a year in between a proposal and 
final is a standard process for EPA.
    Senator Hoeven. One more time. So a year?
    Ms. McCarthy. About a year between proposal and final is 
just generally what we look at. But we know there is a lot of 
anxiety about this rule, and we want to get it right.
    Senator Hoeven. And you are willing to engage in a process 
with USDA and with the farm community--farm and ranch community 
to have a dialogue on this?
    Ms. McCarthy. Absolutely.
    Senator Hoeven. Okay. So then we need to work on setting 
that up.
    Ms. McCarthy. Appreciate that.

            CARBON POLLUTION STANDARDS FOR NEW POWER PLANTS

    Senator Hoeven. Let me switch for just a minute to the 
subject that you were in our State to work on, the 
CO<INF>2</INF> rules. Tell me, with these CO<INF>2</INF> rules, 
first in regard to new plants, it is not a rule that is 
achievable in terms of meeting the CO<INF>2</INF> emission 
requirements with a natural gas equivalency as you have 
proposed it, because carbon capture and storage (CCS), carbon, 
capture, and sequestration, is not commercially viable. So how 
are we going to build any new coal plants, even with the latest 
technology and CCS, with your proposed rule?
    Ms. McCarthy. Well, Senator, with all due respect, we 
believe that carbon, capture, and sequestration is actually 
technically feasible, and it is available.
    Senator Hoeven. No, no--I am sorry. I apologize for 
interrupting. I did not say ``technically feasible.'' I said 
``commercially viable.''
    Ms. McCarthy. Well, technically feasible and available is 
the standard under the law, and nobody is indicating that CCS 
is not adding cost. The challenge we have here is that we need 
to provide a path forward for coal in what we know is a future 
that will be carbon constrained.
    There are already facilities that are being constructed 
with CCS. This is where new coal and clean coal investment is 
happening. We are hoping to continue to provide an emphasis for 
that in this regulation, but certainly it is still a proposal 
and we are looking at the comments we receive. But we think 
this is the future, and we think that facilities are investing 
in it now. We see it for new power plants. CCS has been around 
for a very long time in other applications.
    Let me just mention one thing, Senator. We also took a look 
at what we could do to keep the cost of CCS down as much as 
possible while still providing an emphasis for this technology 
to continue to be developed, continue to be enhanced, and be 
more cost effective by lowering the amount of capture that is 
required in this rule from what we had been considering before. 
So it is partial capture. It is lower cost. It is available 
now, and we believe it has been technically demonstrated.
    Senator Hoeven. I know my time is up here, but just let me 
wrap up with the only way that CCS is going to be developed is 
if it becomes commercially viable, so we have got to get it to 
that point. By having a rule that prevents it from ever being 
put in place or from having any company move forward with it, 
we are never going to develop the very technology we need both 
to produce the energy and get the stewardship--environmental 
stewardship we want.
    And that also goes to the proposed rule that you are going 
to be bringing out for existing plants. You have got to show us 
that whatever rule you bring out is commercially viable and 
that it is not going to shut down plants, and what the cost to 
consumers and small business across this country is going to 
be. It is vitally important as you move forward now with the 
existing plant rule as well. We need to see that it--you know, 
that it is something is truly achievable, not technically 
achievable. It has to be commercially viable.
    Ms. McCarthy. Senator, I heard you and I heard the good 
folks in North Dakota when I was there. And we are working hard 
to do exactly that, and we will have this conversation as many 
times as we see one another and when it comes out, and I will 
be looking forward to it. We are working hard on it.
    Senator Hoeven. Thank you.

                        RENEWABLE FUEL STANDARDS

    Senator Reed. Thank you very much. Let me begin the second 
round by focusing on the issue of renewable fuel standards, the 
EPA proposed volume requirements last November for cellulosic 
biofuel, biomass based diesel, advanced biofuel, total 
renewable fuel. These are sort of stagnant at the 2013 levels. 
You are recommending about 1.28 billion gallons for both 2014 
and 2015. In fact, this is not only less than anticipated, it 
is less than the actual production today, which is about 1.7 
billion gallons.
    So, many of my colleagues joined together in a letter, and 
also biodiesel producers in not my State, but across the 
country, see a threat to their operations because of the 
standards you are setting. Can you tell us when you anticipate 
finalizing the volumes of 2014, and will they be increased to 
encourage more biodiesel?
    Ms. McCarthy. Well, the good news is, Senator, that when we 
put the proposal out, we got lots of comments, and there was 
lots of concern. That was not necessarily the good news part is 
the lots of concern, but we got lots of comments. We are 
looking forward to considering those comments in a final. We 
are hoping to get it done quickly.
    You know, personally I think June is likely, and it should 
never go beyond that. I am hoping that we could do better than 
that, but it is pretty complicated, and we need to work it 
through the process.

                     SOUTHERN NEW ENGLAND ESTUARIES

    Senator Reed. Thank you. Let me turn now to another issue, 
and that is the southern New England estuaries. In the omnibus, 
we had $2 million for it. It is very critical to my part of the 
country, your part of the country. And we are pleased that the 
2015 budget request includes a $3 million increase. Can you 
give us an idea of what activities you hope to pursue, how you 
are going to select these projects and measure success, and the 
types of projects that you would anticipate?
    Ms. McCarthy. Well, as you know, these projects are really 
all about habitat restoration and water quality. I am pretty 
excited about the opportunity for increased funds if that comes 
about. Certainly I think it is pretty important as I know you 
do as well, Mr. Chairman.
    The region has been working pretty hard to put a vision 
together for how these funds could be best expended, and we 
certainly have not done it all alone. We actually have a work 
group that has been initiated that is advising the expenditures 
and how we can most effectively meet the expectations of the 
people that will be served with these dollars.
    So we will not be sitting in our own offices making this 
decision. We will be taking a lot of input from the communities 
themselves. We hope to have a lot that actually provide 
information that will be available for how you deal with 
climate resilience and adaptation, green infrastructure. We 
have seen some of it already starting to happen, and it is 
pretty exciting.

                        BEACH ACT GRANT PROGRAM

    Senator Reed. Thank you, Madam Administrator. Let me talk 
about another concern, and that is that in this budget EPA is 
proposing to eliminate the Beach Act Grant Program. And as you 
know, this program helps States--coastal States to monitor the 
quality of the water. It is actually part of your not only 
environmental, but your health responsibilities. Without 
continued funding, there is a real possibility that the States 
will not have the budgets, particularly in our part of the 
country, to replace this money. And the monitoring and water 
quality attention will diminish significantly.
    Prior to making this determination, did you consider the 
ability of the States to sort of fill the gap, one. Two, you 
have now, as you point out, a significant amount of your 
resources going to State programs to support State activities 
all across the country.
    Ms. McCarthy. Yes.
    Senator Reed. Is this something you are going to insist 
that they continue through other sources so that this beach 
grant money will not be detrimental in its absence?
    Ms. McCarthy. Well, as you know, categorical grants were 
proposed to increase by $76 million. And really the intent of 
the program eliminations was to look at whether or not there is 
an ability to continue with that without us independently 
interjecting or creating a fund specifically for that purpose.
    On the Beach Monitoring Program, it is a pretty sort of 
robust program that has been operating for a long time. We 
think that the States have the ability to do this and will 
continue to do this given the importance to them and to us, but 
clearly there are difficult choices that are made. Radon was 
mentioned as well, which is another eliminated program, as well 
as the Diesel Emissions Reduction Act (DERA) Program, which for 
me is a really hard one as well. But we did the best we could, 
and we are hoping to work with the States moving forward on 
beach monitoring.
    Senator Reed. Well, thank you. Again, you put your finger 
on the next issue, which is the radon program. Senator Leahy 
mentioned that.
    Ms. McCarthy. Yes.

                             RADON PROGRAM

    Senator Reed. My home State of Rhode Island, we have, I 
think, three times the national average in terms of the sort of 
presence of radon in homes and other buildings. And it seems we 
are taking away some of these programs, and then we are giving 
a little bit more money to the States in terms of your general 
support, but giving State budgets their ability to cover all 
these sorts of gaps--beach monitoring, radon programs, et 
cetera.
    Indeed 23 States reported that they will probably have to 
eliminate their radon program, and that is another health 
threat, which, you know, you have a lot of issues from the 
Waters of the United States, to the air of the United States, 
to the health of the American people. And we also understand 
that States--many States are in very difficult situations, 
Rhode Island being sort of one of those.
    Ms. McCarthy. Well, thank you for raising the rate on it. 
If nothing else, I can remind people that after smoking, the 
leading cause of lung cancer, and it takes approximately 22,000 
lives every year. It is something that I have been working on 
myself for quite a while.
    We still have a program on radon, Mr. Chairman, so I do not 
want you to think that this is an indication that EPA is not 
going to continue to work with States on radon. But I perfectly 
understand that it does take some funds away from the States 
that they have been directing towards this issue.
    But we have been working on a Federal radon plan that we 
actually think is gaining some significant momentum about 
making sure that people who are buying homes and mortgaging 
homes through the Federal Government are actually checking for 
radon, needing to address it, because these are deaths that do 
not need to happen. Every one of them is preventable with 
really inexpensive tests and, frankly, incredibly inexpensive 
renovations to address those.
    So it is a frustration, I think, for all of us that we 
continue to talk about radon decades after it hit the news as 
one of the leading causes of death. We need to do better, and I 
know that.
    Senator Reed. Thank you, Madam Administrator. Senator 
Murkowski.

                            CLEAN WATER ACT

    Senator Murkowski. Thank you, Mr. Chairman. I want to take 
you back to the Clean Water Act and the connectivity issue. You 
have indicated to both Senators Hoeven and our colleague from 
Nebraska that you are continuing these discussions, and I think 
that that is going to be critically important moving ahead. Are 
you planning to hold any meetings in Alaska on the impact of 
the rule?
    Ms. McCarthy. Is that your interest, Senator?
    Senator Murkowski. That is absolutely my interest.
    Ms. McCarthy. Okay. I will take----
    Senator Murkowski. In fact, I would ask for a commitment 
that we would--that you would be able to hold at least one, 
hopefully more, public events scheduled in the State so that 
resource producers, other stakeholders can express their views 
and concerns.
    Ms. McCarthy. Well, Senator, I certainly realize that it 
was very helpful for me to go to Alaska because you have told 
me that Alaska is different. I got to see it myself. And I 
recognize just how much of the land mass there is wetlands and 
how important this is going to be.
    Senator Murkowski. Well, let me ask on that question. Do 
the folks at EPA have an estimate for the approximate number of 
acres of land in the State or the percentage of our State that 
would be subject then to the Clean Water Act as a result of 
this re-interpretation of the Waters of the United States? Do 
you have that number?
    Ms. McCarthy. Well, let me see if we do have that. I know 
we have a national estimate. I do not know the exact impact on 
Alaska, but we will certainly respond to that after the 
hearing.
    [Note: The information was not provided for the record.]

                      MAPS OF STREAMS AND WETLANDS

    Senator Murkowski. Well, I would appreciate that. And the 
other thing I would like you to look at, when my staff was 
looking at the EPA website, they noticed links to maps that 
purported to show streams and wetlands in all the 50 States. 
But what was more of a surprise was that the map of seasonal 
and rain dependent streams does not actually feature Alaska 
because apparently there is a lack of data. There is a map of 
drinking water that did include Alaska, but again it shows zero 
data available.
    So it is obviously an issue of concern where supposedly 
this rule is attempting to provide for clarity and efficiency, 
but in a State like Alaska where at least your own maps are not 
indicating that we have the appropriate data within which to 
base any decisions. So I would like talk with you about that as 
well. But I think prior to any meetings that you might be 
holding in the State, I think it is going to be important to be 
able to provide data so that we can look at that as well.
    Ms. McCarthy. Well, Senator, I am happy to provide you with 
what information I have. But, you know, clearly the interest 
that EPA has is to clearly define what is within the 
jurisdiction, and then what is the process that you need to go 
to when there is uncertainty. Because what the science has told 
us is that science can define certain parameters, but others 
require a closer look working with States and communities on a 
case by case basis.
    And so, there is the opportunity to be certain in some 
areas, but to hopefully define a streamlined process in areas 
where the data is not available so that judgments can be made, 
and the basis of those judgments can be consistent as the Army 
Corps makes 404 decisions and EPA interjects and comments on 
some of those.
    Senator Murkowski. And I appreciate a desire for 
consistency and certainty, but you have started your comments 
out recognizing that there are unique----
    Ms. McCarthy. There are.
    Senator Murkowski [continuing]. To a State like Alaska----
    Ms. McCarthy. Absolutely.
    Senator Murkowski [continuing]. One-fifth the size of the 
United States of America, a State where--you will get the 
percentage for me, but in terms of wetlands in our State, some 
would say that almost the entire State is subject to a wetland 
determination. So what that might mean for us is incredibly 
significant.
    And as I have mentioned in my comments, an interpretation 
that goes a different way could really be a showstopper for us. 
So we need to--we need to have greater understanding. I think 
it will be critically important that you and your staff make 
sure that Alaska is very much given an opportunity to weigh in 
as these issues move forward.
    And I will ask you, we have had a, I think, a pretty good 
working relationship between the senior staff at EPA, who have 
made themselves available to meet with my senior folks to talk 
about usually a laundry list of issues that we have compiled 
that come up. Some of them we have been able to work through. 
The issue last year was the mom and pop veterinarian clinic----
    Ms. McCarthy. Right.
    Senator Murkowski [continuing]. That subject to the same 
incineration rules as a major factory. We were able to work 
through some of the specifics. We have a lot more on our plate, 
not the least of which we are still continuing to work on the 
small incinerator initiative. Great deal of concern still with 
where we are with the fish grinding requirements for discharge 
from offshore processors.
    So I would like your commitment to continue the practice 
that we have had over the past couple of years to have your 
senior folks with operational authority sitting down with my 
senior advisers in discussing many of these issues. And if we 
can get a meeting scheduled sooner than later I think that that 
would be helpful for both sides.
    Ms. McCarthy. It has been incredibly valuable, and of 
course we will continue that, Senator.

                HYDRAULIC FRACTURING AND DRINKING WATER

    Senator Murkowski. Good. I appreciate that. And, Mr. 
Chairman, I have one more quick question, if I may, and then I 
will conclude. And this relates to the budget request. On the 
Agency's hydraulic fracking study, you have requested an 
increase of $8.1 million over last year's level. This study was 
the result of congressional direction in the 2010 interior 
bill, which requested an analysis of the ``relationship between 
hydraulic fracturing and drinking water.''
    So now, according to your budget, you are expanding that 
study beyond the original congressional mandate to include 
additional issues, such as water quality in general, air 
emissions from oil and gas operations, including volatile 
organic compounds and hazardous air pollutants. So the question 
that I have for you now is why has the Agency gone beyond the 
original scope that was outlined in 2010, and how much are we 
actually paying for an expansion of this study cost? How much 
has the Agency spent to this point in time?
    As you know, many of us are very concerned about this, and 
feel that the effort coming out of EPA is a duplicative effort. 
And if we are just spending more money in an effort to expand a 
project that really does not have the authorization to expand, 
we want to know.
    Ms. McCarthy. Well, let me be a little bit clearer because 
I do understand your question. On the Office of Research and 
Development study, which is really focused on looking at the 
potential water impacts related to the full range of hydro 
fracking operations, we have been expending in 2013, 2014, and 
2015, $6.1 million. My understanding is that this budget 
requests a similar amount of $6.1--I am sorry, did I say 
``billion?''
    Senator Murkowski. You said ``million.''
    Ms. McCarthy. Oh, I was thinking, wow, that would be great, 
would it not? A million for the drinking water study. The 
additional funds are being used for research that is being done 
collaboratively with the Department of Energy (DOE) and the 
Department of the Interior (DOI). $4.3 million of that is 
looking at water quality in ecological studies that is separate 
from the Office of Research and Development (ORD). That is 
research efforts.
    Then the $3.8 million is air emissions. This is an effort 
to look at methane that is being emitted in the hydro fracking 
process where we have effectively, and I think nice and quietly 
and collaboratively, regulated that from natural gas operations 
during hydro fracking. We have other work to do that in area, 
including in tribal regions to actually expand some 
opportunities for controls to be recognized and sources to be 
permitted through our minor source permitting process.
    So there is work to be done, and that is a reflection of 
that overall work on hydro fracking, not an expansion of the 
ORD study.
    Senator Murkowski. I do not know. Based on what you have 
just said, it still sounds to me like there is an expansion of 
that study. You have indicated that you have other agencies 
that are a part of this, but it would appear that it goes 
beyond what was originally asked in our fiscal year 2010 
interior bill.
    Now the budget indicates that you expect to have a draft 
report to your scientific advisory board by the end of this 
year, then you publish a final report in--at the end of 2016 
apparently. I guess the last question would be whether at a 
minimum, would you agree that it does not make sense for the 
EPA to issue a major rulemaking concerning fracking before the 
final report is issued and reviewed by the Scientific Advisory 
Board?
    Ms. McCarthy. I am not aware of any rule that is currently 
being contemplated, Senator. This hopefully will bring to light 
data that we have not seen before and will allow everyone to 
make judgments. Right now, the most important thing that I 
think we are doing is working to provide States some technical 
information that they can use if they want to as the line of 
first defense to protect water in their States. That is how I 
envision we will continue to operate, unless there is a reason 
that national intervention is necessary.
    Senator Murkowski. Well, and do not get me wrong here. I 
think that the States are doing a good job here in terms of 
regulating hydraulic fracking. And so, I just do not see that 
we need to add another layer with EPA onto that regulation.
    Ms. McCarthy. I fully understand that.
    Senator Murkowski. I am just--I am looking at your budget 
and trying to follow the timeline here, and that is why I raise 
that question.
    Ms. McCarthy. All right. I appreciate that, Senator, and we 
are not in disagreement.
    Senator Murkowski. Okay. Mr. Chairman, that concludes my 
questions. I appreciate the comments today.
    Senator Reed. Thank you very much, Senator Murkowski.

                     ADDITIONAL COMMITTEE QUESTIONS

    Thank you, Madam Administrator for your leadership and for 
your testimony here today. And let me indicate that the record 
will remain open for statements and for questions from my 
colleagues until April 16. And I would ask you to respond as 
quickly as you can to any questions that are forwarded to you 
from the subcommittee.
                Questions Submitted by Senator Jack Reed
                         cutting the workforce
    Question. The fiscal year 2015 budget request proposes cutting 
EPA's workforce, which is a significant departure from prior years. 
This year the budget proposes a staffing level of 15,000. This is 
almost 1,600 fewer staff than you asked for last year and would result 
in the lowest agency staffing level since 1989. Please outline EPA's 
plans for reshaping the workforce? What assurance is there that EPA 
will retain sufficient expertise to fulfill its mission?
    Answer. In the fall of 2013, the EPA began researching the use of 
voluntary retirement and separation authorities to streamline 
organizational practices and to realign our workforce to meet changing 
mission requirements in light of technological advances, resource 
constraints and limited hiring capacity. Nineteen of our regional and 
program offices began developing strategic, office-level proposals that 
formed the basis for Voluntary Early Retirement Authority (VERA) and 
Voluntary Separation Incentive Payment (VSIP) requests that were 
submitted to the Office of Personnel Management in late December 2013. 
Proposals emphasized streamlining administrative processes, 
consolidating functions to the greatest extent possible and, in some 
cases, updating the skill sets of our workforce. This agency-wide 
effort was undertaken strategically and with thoughtful consideration 
by all levels of leadership to ensure that critical expertise was 
retained while allowing the agency to increase efficiency, thus 
enhancing EPA's ability to meet its mission.
    Question. There seems to be a discrepancy in the fiscal year 2015 
request between staff numbers that will decline and an operating budget 
that will increase. Why does the Environmental Programs and Management 
(EPM) account increase by $113 million dollars if the overall number of 
employees will be reduced? If EPA isn't investing in its workforce, how 
will additional operating funds be used?
    Answer. The increase in EPM funds in the fiscal year 2015 
President's budget is relative to the fiscal year 2014 enacted level. 
Despite the reductions to the workforce, a portion of this increase is 
for additional payroll costs. Our fiscal year 2015 request also invests 
in our workforce by supporting efforts to build a High Performing 
Organization (HPO). These efforts support our workforce by maximizing 
efficiency and allowing them to focus on the most important aspects of 
their work--interacting with communities; problem solving by applying 
accessible and accurate data; and developing new approaches to emerging 
issues--rather than working through process steps that add little 
value. This requires changing the way we do business through 
modernizing our work and taking advantage of advances in technology 
(e.g. applying software that allows more efficient learning events for 
all employees and reduces the number of redundant learning management 
systems). On the programmatic side, the additional EPM non-payroll 
funds requested will enable the Agency to make progress on priorities 
such as implementing priority water projects in communities, increasing 
outreach for brownfields projects to help ensure the success of these 
well received grants, improving data on watersheds to help enhance 
priority-setting, improving the coordination on chemical plant safety, 
and working with localities at risk for direct impacts from severe 
storms or other climate related events.
    Question. EPA has already started to reduce its workforce through 
an early buyout that offers incentives for voluntary separation from 
the Agency. Are there particular groups of employees targeted for the 
buyout? Which programs are most heavily impacted? When reductions are 
completed, what will the smaller EPA look like?
    Answer. Nineteen of our regional and program offices developed 
strategic, office-level proposals that formed the basis for Voluntary 
Early Retirement Authority (VERA) and Voluntary Separation Incentive 
Payment (VSIP) requests that were submitted to the Office of Personnel 
Management in late December 2013. The proposals emphasized streamlining 
administrative processes, consolidating functions to the greatest 
extent possible and, in some cases, updating the skill sets of our 
workforce. Based on these proposals, the five occupational series most 
often identified to be authorized for VERA/VSIPs across the agency were 
Environmental Protection Specialist (0028), General Physical Science 
(1301), Environmental Engineering (0819), General Attorney (0905), and 
Management and Program Analyst (0343).
    The programs with the highest acceptance rate of VERA/VSIP offers 
were Superfund: Remedial, Superfund: Enforcement, Civil Enforcement, 
Surface Water Protection, and Compliance Monitoring. The impacts of 
these departures were considered in the proposals prepared by the 
regions and programs.
    As a result of the VERA/VSIPs, the EPA will be a more streamlined, 
efficient organization that is well-poised to take on today's 
challenges and those that present themselves in the future. The 
reductions achieved through the VERA/VSIPs are spread across 19 
regional and program offices; no single office lost a significant 
number of employees. Most offices are now or will soon be engaged in 
limited, strategic hiring efforts to obtain employees that possess 
needed skill sets, which will ensure that EPA maintains its scientific 
and technical edge, and enable the EPA to meet its mission 
requirements.
                  epa furloughs--payroll discrepancies
    Question. One of the tough budget choices that EPA made last year 
was the decision to furlough EPA employees. Since that time, it has 
come to the subcommittee's attention that EPA had at least $33 million 
dollars of unspent funds at the end of the fiscal year.
    Please explain why EPA had unspent funds from fiscal year 2013 and 
why these funds weren't used to minimize the impact of the furlough on 
EPA employees?
    Answer. The agency continues to focus on timely use of 
appropriations to ensure that all funds are expended efficiently but 
also effectively to ensure the most environmental benefit. In many 
cases, (competitive grants or large contracts, for example) the nature 
of the work leads to 2-year appropriation funds being committed in the 
second year. Final calculations identifying the amounts and location of 
carryover were completed following the end of year closeout. However, 
the original need for those resources to support the agency mission 
remained.
    In addition, to maintain the commitment to treating all employees 
equally, a One EPA approach, the carryover would have to have been 
distributed in the appropriation and program projects aligned with the 
total payroll need. Lacking transfer authority and certainty on 
congressional approval for reprogramming requests as well as continued 
uncertainty concerning fiscal year 2014 appropriation levels at that 
time, diverting these carryover funds to pay was very problematic and 
would not guarantee equitable furlough reductions.
    Question. While it's not unusual for an agency to have some 
carryover funds, fiscal year 2013 was not a normal year. How did the 
agency make its spending decisions and determine funding priorities?
    Answer. Working within the appropriation, program area, and project 
levels provided following sequestration reductions, highly detailed 
analysis was conducted to balance payroll needs and critical support 
for the agency's mission with extramural resources. Based on this 
analysis, our commitment to treating employees equally with respect to 
furloughs, and the need to continue the work of the agency, the Acting 
Administrator made a decision concerning the maximum number of hours as 
well as a firm commitment to reevaluating that number at the midpoint 
to find any possible reductions made possible by savings in non-pay 
funds. Over the course of the furlough period, the maximum number was 
reduced on two occasions resulting in total agency furlough hours being 
a maximum of 47 per employee.
    Question. How many hours of furlough could have been avoided with 
the unspent funds from fiscal year 2013?
    Answer. Without using congressional reprogrammings and having 
access to transfer authority, the EPA could not have avoided any hours 
of furlough with unspent funds from fiscal year 2013 while still 
maintaining its commitment to treating all employees equally.
                        e-enterprise initiative
    Question. EPA has proposed a major $70 million dollar initiative, 
called E-Enterprise, to transition compliance reporting from paper to 
electronic web-based reporting. What does EPA hope to achieve with the 
$70 million dollar investment and what will its effect be on States and 
the regulated community?
    Answer. E-Enterprise is a broad strategy to modernize how EPA and 
its co-regulator partners do business, going far beyond the move from 
paper to web-based (electronic) reporting. The E-Enterprise business 
strategy will reduce the burden and impact of environmental regulations 
on regulated entities and co-regulators (States, tribes, and 
territories) through applying LEAN management principles to programs, 
improving business processes and modernizing data flows. For fiscal 
year 2015, the E-Enterprise Leadership Council (EELC), a joint 
governing body between the States and the EPA, identified $70 million 
high-potential projects which align with the E-Enterprise business 
strategy and are ripe for near-term investment. The majority of these 
funds are in existing programs/projects, and are contained in EPA's 
base budget which supports critical functions within those programs. 
Examples are the Safe Drinking Water Information System (SDWIS), the 
National Pollutant Discharge Elimination System (NPDES), and e-Manifest 
in the Resource Conservation and Recovery Act (RCRA) waste management.
    Approximately $19 million of the $70 million has been identified by 
the EELC as new work with the immediate potential to significantly 
reduce burden on States and regulated entities. This includes grant 
resources to enable State (and tribal) participation in E-Enterprise; 
development of the Regulatory and Public Portal for data exchange and 
transparency; and support for streamlining and modernization in a 
number of environmental programs through the use of shared services.
    The Agency has established a new fiscal year 2014-2015 Agency 
Priority Goal (APG) to improve environmental outcomes and enhance 
service to the regulated community and the public. The E-Enterprise 
strategy will help the Agency achieve these burden reduction goals 
through modernizing data flow processes (e.g. moving from paper-based 
to electronic reporting) while requiring no additional data to comply 
with existing regulations. For example, with the Hazardous Waste e-
Manifest, burden reduction is estimated between 370,000 and 700,000 
hours (and more than $75 million) for States and the regulated 
community.
    States are supportive of the E-Enterprise business strategy and are 
already engaging in E-Enterprise efforts. For example, Ohio EPA 
launched its electronic Discharge Monitoring Report Submission (eDMR) 
system,\1\ which uses electronic reporting to allow permittees to 
report their discharge measurements quickly and easily online. This 
method of reporting has increased data quality (errors have dropped 
from 50,000 per month to 5,000), while also saving significant time and 
resources for all stakeholders. Ohio EPA reduced the number of 
reporting staff from 5 FTE to zero through the automated compliance 
tools and a positive ROI was achieved within 2 years.
---------------------------------------------------------------------------
    \1\ http://www.epa.ohio.gov/dsw/edmr/eDMR.aspx.
---------------------------------------------------------------------------
    Below are a few of many examples of stakeholder (e.g. States and 
the regulated community) comments expressing support for key pilot 
projects of the E-Enterprise business strategy including streamlining 
existing regulations in the Tier 3 Vehicles Emissions and Fuel 
Standards Program and the NPDES Electronic Reporting rule:

  --Marathon Petroleum Company.--EPA has made regulatory streamlining a 
        priority and we appreciate the Agency's efforts. We agree that 
        regulatory streamlining will result in more efficient and less 
        costly compliance. We support the elimination of unnecessary 
        and outdated provisions. These provisions are independent of 
        Tier 3 and should be promulgated in a final rule earlier than 
        the Tier 3 final rule. We agree with the Agency that these are 
        straightforward and should be implemented quickly. [EPA-420-R-
        14-004 p. 6-1]
  --Phillips 66 Company.--We are appreciative of the effort to 
        streamline various portions of existing regulations. With 
        changes over time, there are several areas that need ``clean-
        up'' and this effort will reduce confusion and burden on the 
        regulatory parties. We offer the following comments on the 
        proposed revisions as well as suggestions for other provisions 
        that we feel would add value and should be considered. [EPA-
        420-R-14-004, p. 6-2]
          Change in reporting dates--Overall, the concept of aligning 
        the various reporting dates and being able to develop a unified 
        and simplified reporting form is a good one. Providing 
        additional time is beneficial. We appreciate the Agency 
        providing this change. [EPA-420-R-14-004, p. 6-13]
  --Massachusetts Water Resources Authority (MWRA).--MWRA appreciates 
        that the proposed rule [NPDES Electronic Reporting Rule] will 
        allow EPA to obtain, and provide to the public, a more complete 
        picture of NPDES discharges--one that includes small as well as 
        large discharges. Electronic data collection has the potential 
        to reduce the errors in ICIS-NPDES and also allow errors to be 
        corrected in a more timely way. In summary, MWRA generally 
        supports the idea of phased-in electronic reporting, provided 
        data can be accompanied by qualifying comments. Document No. 
        EPA-HQ-OECA-2009-0274-0263-A2.
  --Metropolitan Sewer District of St. Louis (MSD).--In general MSD 
        supports the purpose of the rule [NPDES Electronic Reporting 
        Rule] in moving to electronic reporting for many NPDES related 
        activities. We agree that electronic reporting will likely 
        provide for better data recording and management by EPA and 
        authorized States, tribes, or territories. Some portions of the 
        proposed rule will also support communities like MSD in their 
        continued efforts in transparency and to provide the public 
        with uncomplicated access to quality information which is free 
        of errors due to multiple data entry points. Document No.
        EPA-HQ-OECA-2009-0274-0364-A2.
  --North East Biosolids & Residuals Association (NEBRA).--We support 
        the overall concept of the proposed rule [NPDES Electronic 
        Reporting Rule] and agree that, if implemented thoroughly with 
        considerable support, it might achieve the benefits stated in 
        the Federal Register discussion. The increased availability of 
        data would serve to enhance public understanding of wastewater 
        treatment and biosolids management. NEBRA feels that the 
        proposed rule merits further consideration, but that the 
        details of the proposed electronic reporting system are 
        critically important and will determine whether or not the 
        system is a success. Document No. EPA-HQ-OECA-2009-0274-0288-
        A1.
  --United States Steel.--U. S. Steel generally supports the rule 
        [NPDES Electronic Reporting Rule] and its goals, such as 
        publically sharing discharge information, improving the 
        Agency's decisionmaking capabilities, and enhancing Agency 
        resources through minimizing expenditures for monthly 
        reporting. Document No. EPA-HQ-OECA-2009-0274-0268-A2.

    Question. How many years does EPA expect to request funding for the 
initiative? What is the total cost estimate and how does EPA expect to 
spread these costs over future budget cycles?
    Answer. Out-year requests are expected to be similar to current 
request levels. Investments in individual projects are expected to be 
recouped through the deployed business efficiencies.
    Each budget cycle will include investments to transition the Agency 
and its co-regulator partners to an updated customer and information-
centric business strategy. In a phased implementation approach, a set 
of programs and projects are chosen for modernization and E-Enterprise 
supports the planning and development phases.
    Aligning EPA's existing programs to the E-Enterprise business 
strategy will remain a priority for the EPA and States. In the out-
years, individual projects will continue to be jointly selected by 
States and the EPA based on their potential for streamlining, 
modernization, and potential Return on Investment (ROI). Rather than 
EPA and States creating a particular capability several times over, the 
E-Enterprise strategy incorporates a ``build once, use many'' approach. 
As individual projects are completed, resources shift to the next 
priority. Once program systems have been modernized, the program 
offices manage the ongoing operations and maintenance (O&M) of the 
systems at a reduced cost for the participating co-regulators than 
would otherwise have been possible, allowing resources to be used for 
program implementation. The additional benefits from increasing 
transparency and improving customer service to stakeholders provide 
additional value.
    Under the E-Enterprise strategy, investments in individual projects 
have individual value. While priorities will change annually within the 
overarching E-Enterprise strategy as determined by the co-regulator 
partners, individual projects that have been completed will continue to 
operate and provide value.
    Question. The budget request discusses the potential cost savings 
that the regulated community will realize through electronic reporting. 
Please share details about anticipated savings and, if funding is 
provided in fiscal year 2015, when is it anticipated that the 
initiative be fully operational?
    Answer. Savings under the E-Enterprise business strategy to the 
regulated community can be measured in time and resources that will be 
reduced (e.g. burden reduction) through streamlined regulations and 
implementation of individual projects. The streamlining of regulations, 
shared State and EPA information reporting approaches, and moving from 
paper-based to electronic reporting will result in significant burden 
reduction. The agency has a commitment of one million hours of burden 
reduction in one of its fiscal year 2015 Agency Priority Goals. 
Examples of burden reduction and cost savings estimated for key 
projects coordinated under the E-Enterprise strategy include the 
following:

  --Safe Drinking Water System (SDWIS).--910,000 hours of burden 
        reduction for States, 80,000 hours for Public Water Systems and 
        Labs.
  --National Pollutant Discharge Elimination System (NPDES) e-reporting 
        Rule.--914,000 hours of burden reduction, $28.5M savings for 
        States, $1.1M savings for permittees, EPA savings of $0.7M.

    The E-Enterprise strategy will cover a series of programs and 
projects, each of which is designed to be modular with regular 
milestone deployments. Smaller projects can be fully operational within 
1-2 years; projects of larger scope will operational within 3-5 years. 
Some projects are already underway such as SDWIS and NPDES mentioned 
above. The intent is for E-Enterprise to continually improve the full 
range of EPA's environmental programs and projects. The EPA, States, 
tribes, and territories have a set of legacy information systems to be 
transitioned and integrated without interruption in service. All 
programs/projects will undergo an alternatives analysis and business 
case with a return on investment (ROI) study to determine the cost-
effectiveness of proposed changes to the investment.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question. Administrator McCarthy, both you and President Obama have 
said that we must have the courage to act before it is too late and 
make historic investments in resilience to climate change. The 
President further promised that his fiscal year 2015 budget proposal 
would include a $1 billion Climate Resilience Fund. I applaud this 
priority considering the accelerating impacts of climate change. In 
Vermont, the EPA recognizes that climate change is impacting water 
quality in Lake Champlain and is requiring the State of Vermont to 
address these impacts as part of a new EPA Total Maximum Daily Load 
(TMDL) plan for phosphorus pollution. In light of the administration's 
strong commitment to spending $1 billion in fiscal year 2015 for 
climate resilience, and that the Lake Champlain phosphorus TMDL will be 
among the first in the country where the EPA requires climate change to 
be addressed, please tell me how in fiscal year 2015 and beyond, you 
will direct additional Federal resources to support implementation of 
resilience measures as part of the EPA's Lake Champlain phosphorus TMDL 
efforts?
    Answer. The EPA is responsible for developing a new phosphorus 
Total Maximum Daily Load (TMDL) because, in January 2011, the EPA 
disapproved Vermont's 2002 Lake Champlain TMDL. The EPA disapproved the 
2002 TMDL because it did not provide sufficient assurance that 
phosphorus reductions from polluted runoff would be achieved, and did 
not provide an adequate margin of safety (MOS). The development of the 
new TMDL has given the EPA the opportunity to re-examine and update all 
the elements of the TMDL and consider factors that would affect 
phosphorus loads.
    Regardless of whether or how potential climate change impacts may 
be reflected in this TMDL, the EPA remains committed to improving our 
understanding of how climate change may impact the Lake, such as 
influencing changes in flow, sediment, and phosphorus inputs. The EPA 
has funded two climate-related studies in the Lake Champlain watershed. 
Based on these studies and recent storm events, the EPA and the Vermont 
(VT) Department of Environmental Conservation (DEC) recognize the 
importance of incorporating additional resiliency into Best Management 
Practice designs (e.g., culvert sizing to accommodate larger stream 
flows) that will be important components of VT DEC's TMDL 
implementation planning.
    The EPA remains committed to supporting implementation of the Lake 
Champlain TMDL, and it will work with Federal and State partners to 
leverage the much needed Federal investment in climate resiliency.
    I have heard from a number of Vermont residents, farmers, and 
businesses with concerns about the use of persistent herbicides and the 
presence of such herbicides in compost. Their gardens and farms have 
been seriously damaged by compost or mulch that was contaminated with 
persistent herbicides. These potent chemicals are applied to lawns, 
pastures, hayfields, and roadsides, and continue to be highly toxic to 
plant growth even after residues on grass or hay have been composted. 
These herbicides even remain potent in the composted manure of 
livestock and horses that graze on treated pastures and hay.
    I am worried about the environmental and financial risk to the 
multi-billion dollar compost industry if new standards and testing are 
not developed to identify the presence of these herbicides in compost, 
and if steps are not taken to ensure that persistent herbicides cannot 
persist in compost at dangerous levels. I fear that, without new 
protections, there will continue to be tremendous financial loss and 
environmental damage similar to what we have already experienced in 
Vermont.
    This problem will only escalate as more States and municipalities 
make it illegal to send leaf and yard debris and food scraps to 
landfills, and require greater use of composting. Unless the issue of 
persistent herbicides in compost is addressed, the market for finished 
compost may simply disappear, or composters may find themselves liable 
for sizeable payments to their customers with damaged crops, as 
happened in Vermont.
    Question. As the EPA continues its work to review registration for 
these persistent herbicides, beginning with the ongoing review of 
Picloram, can you assure me that you will take into account the impact 
on the compost industry and will the EPA require these persistent 
herbicides to break down in the composting levels that are not 
phytotoxic to plants?
    Answer. The pyridine class of herbicides (the group of pesticides 
recently associated with compost problems) are currently in, or 
approaching, registration review, the program that requires us to re-
evaluate registered pesticides every 15 years to ensure the product 
continues to meet the statutory standard. During this registration 
review, we are requiring additional data to aid our understanding of 
how persistent these herbicides are in compost and manure. These data 
may inform the development of mitigation measures and advisory 
resources. All members of the pyridine class will be screened for 
potential compost concerns during the problem formulation stage of the 
program. Following this initial analysis, we may impose compost-
specific data requirements as needed. These data include a dissipation 
study in compost and an environmental chemistry method (with 
accompanying independent laboratory validation) on compost. The agency 
is working with interested stakeholders to develop a protocol for 
conducting the compost dissipation study. These data will be used to 
characterize the potential risk from residues in compost and may inform 
the development of guidance resources for composters.
    While the pyridines registration review is underway, we have taken 
a number of interim steps that appear to have had a positive impact on 
this issue, including stronger label warnings and restrictions and 
registrant educational outreach materials. EPA will continue to monitor 
incidents related to contaminated compost to evaluate the effectiveness 
of these steps. If these efforts do not resolve contaminated compost 
issues, the EPA intends to consider additional regulatory action for 
these herbicides.
    Question. What is the EPA doing to develop publically available 
test methodologies to detect the presence of these herbicides in 
finished compost and in compost feedstocks?
    Answer. We have established a workgroup that is evaluating a 
standardized testing procedure for pesticides that could persist in 
composted material. Representatives from the U.S. Compost Council, the 
California Recycling Council, and the State FIFRA Issues Research and 
Evaluation Group, participate in this workgroup. We hope to have a 
standardized testing procedure in place within the next few years.
    The EPA has proposed new fine particulate matter (FPM) emission 
standards for residential wood heaters. I applaud this long overdue 
update of new source performance standards, considering that cordwood 
heater technology has improved in the 25 years since the standard was 
first issued and we now better understand the serious health impacts of 
fine particulate matter air pollution. I am concerned, however, that 
implementation of the new standards will place heavy burdens on 
manufacturers of EPA certified wood heaters as they transition to 
cleaner technology, while not moving fast enough to take the most 
polluting devices, those currently exempted from regulation, off the 
market.
    Question. How will the EPA's implementation of a final standard for 
FPM emissions from wood heaters protect public health while ensuring 
emission limits and compliance schedules that are viable for U.S. 
manufactures of high quality certified appliances?
    Answer. The proposed rule considers both protection of public 
health and viability of U.S. manufacturers by using a phased 
implementation approach. Step 1 of the proposal would level the playing 
field by requiring emission levels that over 85 percent of currently 
certified wood stoves already meet and requiring reasonable emission 
levels for those devices that are not regulated by the 1988 New Source 
Performance Standard (NSPS). Five years later, Step 2 would require 
emission levels for all devices that correspond to what the best 
systems of emission reduction are achieving in the marketplace today.
    Question. What more can and will the EPA do to encourage homeowners 
across the country to make investments in new wood heater technology to 
change out their older inefficient wood stoves or fireplaces with new 
EPA certified wood stoves, while also encouraging homeowners to support 
American manufacturers?
    Answer. The EPA places a high priority on encouraging homeowners 
and manufacturers to invest in cleaner and more efficient technology. 
We will continue to inform homeowners of the benefits via our Burn Wise 
program (www.epa.gov/burnwise), provide tools for State, tribal, and 
local agencies to conduct changeout programs, and provide a means for 
manufacturers to promote cleaner wood-burning fireplaces.
    The EPA is working with the Environmental Defense Fund and others 
to coordinate a national roundtable to help identify potential funding 
and technical resources needed for residential changeout programs and 
promoting other ways to reduce residential wood smoke. The roundtable 
expects to host members from the EPA, other Federal agencies, such as 
the Department of Energy, and Housing and Urban Development, 
manufacturers, and State and local air agencies.
                                 ______
                                 
                Question Submitted by Senator Tom Udall
                                 radon
    Question. Our State Environment and Health Department has brought 
to my attention a concerning reduction in the EPA budget.
    I understand the President's budget zeroed out a categorical grant 
program for radon detection and information. This is disappointing. I 
understand that we need to make hard choices, but this program provides 
a lot of significant impacts for every dollar spent.
    After smoking, radon is the second leading cause of lung cancer in 
the United States and the leading cause in non-smokers. It's a 
significant public health problem throughout the United States.
    States like New Mexico have used these grants to inform citizens 
through outreach, education, and training to lower their risk from 
exposure to this natural radioactive gas that exists in our homes, 
schools, and commercial and government buildings. I'd like to work with 
you to discuss the future of this program.
    Can you explain why this program was zeroed out and what we can do 
to restore funding?
    Answer. The State Indoor Radon Grants (SIRG) program was 
established by Congress to fund the development of States' capacity to 
raise awareness about radon risks and promote public health protection 
by reducing exposure to indoor radon gas. After 26 years in existence, 
the radon grant program has increased States' technical expertise and 
capacity to raise awareness about radon risks and promote public health 
protection by reducing exposure to indoor radon gas. Eliminating the 
SIRG program is an example of the difficult choices the agency has made 
in this budget to help meet the Nation's fiscal challenges. The Radon 
Program will continue to be a priority and the EPA will focus on 
driving action at the national level with other Federal agencies, 
through the Federal Radon Action Plan. Released in June of 2011, the 
Action Plan aims to increase radon risk reduction in homes, schools, 
and daycare facilities, as well as radon-resistant new construction. It 
contains both an array of current Federal Government actions to reduce 
radon risks and a series of new commitments for future action. More 
information about the Action Plan and its progress is available at: 
http://www.epa.gov/radon/action_plan.html.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
   greenhouse gas new source performance standards (nsps)--new units
    Question. Ms. McCarthy, I am concerned about the impact of the 
EPA's proposed rule setting New Source Performance Standards for new 
units and soon to be issued proposed rule for existing units. Alaska's 
electric system is unique compared to the grid in the lower 48. As you 
may know, there are 126 certified electric utilities in Alaska, and 
only 6 of those utilities are connected to each other through the 
``Railbelt Grid'' that serves the most populated areas of the State. 
The other 120 electric utilities provide electric power to 
approximately 30 percent of Alaska's population that is spread out over 
millions of square miles. Usually the ``one size fits all'' approach to 
regulations does not work for my State.
    Alaskans are concerned they will not have reliable, affordable 
electric service as a result of the NSPS rules. The utilities in my 
State face many challenges that utilities in the lower 48 do not face, 
such as the option to rely on an interconnected grid and the 
availability of infrastructure and support services.
    Would EPA consider providing a waiver to the NSPS rules for 
electric generating units/utility power plants not located in the 
contiguous United States?
    Answer. The proposed performance standards to limit carbon 
pollution from newly constructed power plants were published on January 
8, 2014 and the public comment period recently closed on May 9, 2014. 
We are currently reviewing the nearly 2 million comments that we 
received on the proposed rule. Please note that the proposal does not 
cover newly constructed oil-fired turbines, which we were told in 
previous comments are expected to be the most commonly built new 
sources in remote areas of Alaska and some other areas. The proposal 
for emission guidelines to limit carbon pollution from existing power 
plants was signed on June 2, 2014. The Agency heard from many 
stakeholders--including States, municipalities, utilities, and others--
regarding the need for flexibility in developing State plans. The 
Agency looks forward to receiving comments from the public during the 
comment period.
                       small remote incinerators
    Question. I want to thank you for your continued efforts to work 
with the oil and gas and mining industries in Alaska on a new testing 
program for emissions from small remote incinerators (SRIs). The 
expectation is that the EPA will consider the emissions data from this 
program and revise the emissions limits for SRIs, if warranted, based 
on the new data. If the limits are not revised, no incinerator will be 
able to continue operating. For most of these incinerators, there 
simply is no feasible alternative to incineration, or the alternative 
risks increase environmental damage or risks human and wildlife health 
and safety. For example, the only alternative for the Oooguruk oil 
field is to helicopter sling garbage hundreds of miles away to the 
closest landfill; and this would necessitate waste storage in polar 
bear habitat.
    Do you acknowledge that there is no viable alternative to 
incineration for most, if not all, of the oil and gas and mining 
projects where SRIs are located?
    Answer. Because of the remote location, SRI units do not always 
have lower-cost alternative waste disposal options (i.e., landfills) 
nearby. Emissions associated with transporting the solid waste could be 
significant.
    Question. Please explain why the Park Service may operate the same 
type of incinerators in Glacier Bay and Denali National Parks, yet they 
are exempt from emissions limits requirements?
    Answer. Incinerators subject to the Commercial and Industrial Solid 
Waste (CISWI) rule are those located at commercial or industrial 
facilities. The Park Service operates municipal and/or institutional 
incineration units. Institutional units and certain municipal units are 
subject to standards under the Other Solid Waste Incineration (OSWI) 
Rule, which was finalized in December 16, 2005 but does not apply to 
incinerators located in isolated areas of Alaska. The EPA will evaluate 
whether to establish standards for such units when it next reviews the 
OSWI rule pursuant to the periodic review provisions of section 129 of 
the Clean Air Act.
    Question. Is the EPA's intent to continue working with the oil and 
gas and mining industries on a new testing program for emissions from 
small remote incinerators to sufficient data will be provided to 
warrant the EPA taking a second look at the emissions limits for SRIs?
    Answer. The EPA is willing to work with SRI stakeholders to ensure 
that the appropriate data are collected. The EPA staff are engaging 
regularly with the SRI stakeholders regarding the proposed testing 
protocol for collecting additional emissions data. On May 27, 2014, we 
had a meeting to discuss the EPA comments on the most recent revisions 
to the testing protocol. The EPA will continue engaging in discussions 
with the SRI owners and operators to develop the protocol for gathering 
more data.
    Question. Does the EPA still intend to consider emissions data from 
the new testing program and potentially revise the emission limits for 
SRIs?
    Answer. The EPA has a history of considering data submitted by 
industry and we would do so in this case as well. If SRI stakeholders 
collect additional data, the new data could be submitted to the EPA 
with a petition for rulemaking. The EPA is committed to working with 
the SRI stakeholders to further develop and refine the testing 
protocol, review a petition for rulemaking and accompanying data, and 
determine whether further rulemaking is appropriate.
                discharges from offshore fish processors
    Question. EPA currently requires that offshore catcher processors 
operating in Federal waters off the coast of Alaska have a National 
Pollutant Discharge Elimination System (NPDES) Offshore Seafood 
Processors General Permit. This NPDES permit applies national effluent 
limitation guidelines requiring that no ``pollutants'' may be 
discharged which exceed \1/2\ inch in any dimension. This standard 
dates back to 1975 and was developed for shore-based wastewater 
treatment plants, and applying it to fishing vessels at least 3 miles 
from shore never has made much sense. In fact, there is little, if any, 
measurable benefit to the environment. Instead, the offshore catcher 
processors have experienced significant difficulties in achieving the 
\1/2\ inch in any dimension standard due to challenges with grinding 
fish skin, slime, muscle, cartilage, and other internal organ fibers. 
As they have attempted to meet the standard by installing larger and 
larger grinders, their fuel consumption, costs, and emissions have gone 
up, as have the risks for crew operating this dangerous equipment.
    It is my understanding that staff in EPA's Office of Water and 
Region 10 are working with the freezer longline sector to determine 
whether to take this ``fish grinding'' requirement through the annual 
Effluent Limitations Guidelines review process.
    Can you confirm that this review is proceeding expeditiously and 
provide a timeline for the agency's decision on eliminating this permit 
requirement?
    Answer. The Office of Water and Region 10 continue to work with the 
Freezer Longline sector with respect to their NPDES permit 
requirements. The EPA expects to complete its evaluation prior to 
issuance of the next applicable permit.
  npdes gp for geotechnical discharges/arctic oil and gas development
    Question. In November 2013, the EPA released a draft National 
Pollutant Discharge Elimination System (NPDES) General Permit for 
geotechnical discharges associated with oil and gas activities off the 
coast of Alaska. Geotechnical work is a necessary precursor to 
development, and without coverage under the permit, operators cannot 
conduct critical soil surveys along potential pipeline routes and at 
potential production facility locations. Unfortunately, the draft 
permit is completely unworkable, and forced at least one operator to 
cancel a geotechnical program planned for 2014. The comment period 
closed for the draft permit, with extensive comment detailing technical 
and logistical issues with it.
    Is it the agency's intent to put out a revised draft permit for 
public comment that addresses those issues?
    Answer. Based on the comments received during the public review of 
the draft geotechnical general permit, on March 21, 2014, the EPA 
determined that certain permit provisions may warrant further 
consideration. To further that process, the EPA has met with 
representatives from Shell, BP, and ConocoPhillips to clarify several 
technical issues and obtain additional information. The EPA is in the 
process of reviewing this new information, in addition to considering 
all comments received. The EPA will make a determination shortly 
whether to make changes to the draft general permit and whether these 
changes are significant enough to warrant re-noticing the draft general 
permit for public review and comment. The EPA will provide the public 
with an updated project timeline once this decision has been made.
    The draft permit incorporates monitoring and testing requirements 
(i.e., before, during, and after each borehole) that are similar to the 
requirements for drilling exploration oil wells. But this is a permit 
for geotechnical boring discharges.
    Question. Can you explain why the requirements for both activities 
are essentially the same even though the environmental impacts are 
significantly different?
    Answer. The draft geotechnical general permit requirements for 
environmental monitoring are not essentially the same as those for 
exploration wells, and in fact, reflect the different nature of the 
activities.

    The draft geotechnical general permit requires two phases of 
monitoring:

  --Phase I includes a physical (wind/current speed and direction, 
        water temperature, salinity, depth and turbidity) and visual 
        characterization of the seafloor at each borehole location. 
        Obtaining this information is relatively straightforward and 
        can be based on existing data. The baseline information is 
        necessary to ensure the geotechnical activity site is not 
        located in or near a sensitive biological area, habitat, or 
        historic properties.
  --Phase II is only required if drilling fluids are used and is 
        conducted during and after the geotechnical drilling occurs. 
        Phase II includes observations for potential marine mammal 
        deflection during discharge of non-contact cooling water, which 
        is the largest volume discharge and consists of elevated 
        temperatures, and a physical sea bottom survey. This basic 
        level of monitoring is consistent with NPDES permits where 
        drilling fluids are used.

    In contrast, the exploration general permits require four phases of 
monitoring at each drill site location. Because of the increased 
discharge volumes and levels of activity, these requirements are more 
extensive than those in the draft geotechnical general permit:

  --Phase I (baseline).--Initial site survey; collect physical and 
        receiving water chemistry data; analyze drilling fluids for 
        metals; analyze sediment characteristics; evaluate benthic 
        community structure; and conduct dilution, plume, and 
        deposition modeling.
  --Phase II (during drilling).--Effluent toxicity characterization; 
        sample the drilling fluids and drill cuttings discharge plume 
        in the water column; and collect observations for potential 
        marine mammal deflection during periods of discharge.
  --Phase III (post-drilling).--Survey sea bottom; analyze sediment 
        characteristics; and conduct benthic community bioaccumulation 
        monitoring.
  --Phase IV (15 months after drilling ceases).--Survey sea bottom; 
        analyze sediment characteristics; and conduct benthic community 
        bioaccumulation monitoring.

    The draft permit incorporates a whaling blackout throughout the 
Chukchi Sea in the spring and the Beaufort Sea in the fall, which goes 
beyond the recommendations of the Alaska Eskimo Whaling Commission.
    Question. Can you explain to me why the EPA went beyond what even 
the local subsistence users requested in terms of when geotechnical 
activities should not occur?
    Answer. The draft geotechnical permit does not go beyond the 
recommendations of the Alaska Eskimo Whaling Commission. The EPA 
received comments from tribal governments, the North Slope Borough, and 
the Alaska Eskimo Whaling Commission requesting no discharge into the 
Spring Lead System before July 15 in the Chukchi Sea and no discharge 
of any waste stream during fall bowhead hunting in the Beaufort Sea. 
These requests are much more restrictive than the current requirements 
of the draft geotechnical permit.
    The draft permit applies only to geotechnical discharges associated 
with oil and gas activities in Alaska. Yet, this type of geotechnical 
work is routinely performed offshore in the U.S. for work relating to 
the development of offshore infrastructure for shipping, as well as for 
wind farms.
    Question. Does the EPA require the same sort of rigorous data 
collection for boreholes drilled for any other outer continental shelf 
(OCS) purpose--wind farms, port infrastructure outside of State waters, 
etc? If not, what is the scientific basis for distinguishing between a 
borehole drilled for a pipeline or production facility survey versus a 
borehole drilled for any other purpose?
    Answer. The EPA Region 10 is not aware of other activities, such as 
infrastructure development for wind farms or ports, that would require 
geotechnical surveys to be conducted in the outer continental shelf; 
nor have NPDES permit applications been submitted for discharges 
associated with these types of activities.
    Please see the response to the previous question regarding the 
level of monitoring data collection for geotechnical activities. 
Certain industry operators are proposing to discharge drilling fluids, 
generally for deeper boreholes that range from 50 to 499 feet beneath 
the sea floor. Drilling fluids include borehole stabilization 
additives, which include polymer and bentonite, and may be used for 
boreholes drilled at 100 feet depth. Some operators plan to add barite 
to the drilling fluids. Barite is a concern because it is known to 
contain trace heavy metals, such as mercury, cadmium, arsenic, 
chromium, lead, nickel, and zinc.
    The specific geotechnical activities proposed here also involve a 
number of different waste streams and the discharge of potentially 
large volumes of pollutants from geotechnical vessels. Such practices 
and discharges may not be involved as part of other activities such as 
port infrastructure or wind farm projects.
    In addition, because the geotechnical permit is a general permit, 
it is designed to include all potential discharges from similar 
activities, i.e. both shallow and deeper boreholes, drilled with and 
without drilling fluid. As noted above, if drilling fluids are not used 
to drill the boreholes, then the monitoring requirements are reduced 
accordingly. Similarly, the general permit establishes limits specific 
to each pollutant based on applicable effluent discharge limitations 
(allowable pollutant concentrations that are established by regulation 
based on available technology and that apply across a particular 
industry sector) as well as water quality standards. The EPA applies 
the standards and requirements to address the pollutants in the 
discharge regardless of the type of activity.
   clean water act rulemaking on power plant water intake structures
    Question. Ms. McCarthy, it has come to my attention that the EPA 
has initiated an Endangered Species Act (ESA) section 7 consultation 
with the Fish and Wildlife Service and the National Marine Fisheries 
Service on the proposed rule regarding section 316(b) of the Clean 
Water Act governing power plant cooling water intake structures. I have 
been told the nuclear industry has raised concerns about the potential 
for the rule to be applied in an overly broad manner such that it could 
require facilities to install cooling towers or stop operations if a 
threatened or endangered species is located in a water body from which 
the facility draws water from, even if there is no evidence of impact 
to that species.
    Do you believe the section 316(b) proposed rule should require a 
power generator to monitor all species in a water body from which a 
facility draws water from or should the rule only focus on threatened 
and endangered species directly affected by the intake structure?
    Answer. The final rule requires all facilities to identify all 
species affected by the cooling water intake structure, and then 
establishes protections for the aquatic life affected by that intake 
structure. This includes protection of threatened and endangered 
species.
    In the past, section 316(b) monitoring focused on the prevention of 
``adverse environmental impact'' of threatened and endangered aquatic 
life.
    Question. Do you believe the scope of monitoring should be expanded 
to look at species that may be in the water body and might be 
indirectly affected by intake structures?
    Answer. The EPA's final rule requires that all facilities identify 
in their permit applications all federally-listed threatened and 
endangered species and/or designated critical habitat that are or may 
be present in the vicinity of the intake. Identification can be based 
on information readily available to the facility at the time of the 
application. A facility may request to reduce monitoring requirements 
after the first full permit term, if the monitoring data show that the 
intake does not directly or indirectly affect listed species/habitat.
    Question. Do you think it is appropriate to order a facility to 
install a cooling tower or stop operations if a threatened or 
endangered species is located in a water body from which the facility 
draws water from, when there is no evidence of impact to that species? 
If yes, should any consideration be given to the impact on electric 
reliability?
    Answer. The final rule provides the Permitting Director (the State 
or EPA, depending upon the location of the discharge) with much 
discretion to choose the appropriate technology to protect fish and 
shellfish generally, or threatened and endangered species in particular 
at a specific location. Closed cycle cooling is only one of a number of 
different technologies the Director may select to prevent impingement 
or entrainment of fish and shellfish.
     inspector general (ig) report concerning epa credit card abuse
    Question. The EPA IG issued a report last month on March 4, and 
found that over half of the government credit card transactions by EPA 
employees were used for inappropriate personal expenses--such as gym 
memberships for friends and family, hotel rooms, and expensive meals. 
While the number of transactions that the IG looked at was rather 
small--80 transactions totaling $152,000--agency employees as a whole 
spend roughly $29 million on government credit cards. If anywhere close 
to half of these charges are inappropriate that is truly alarming.
    What processes is EPA putting in place to correct this problem?
    Answer. In response to the IG's March 4 report, ``Ineffective 
Oversight of Purchase Card Results in Inappropriate Purchases at EPA'' 
(report no. 14-P-0128), the EPA has implemented or plans to implement 
the following corrective actions to strengthen management controls 
within the EPA National Purchase Card Program:

  --The EPA will reform and integrate existing biennial reviews into 
        the Office of Acquisition Management (OAM) Contract Management 
        Assessment Program (CMAP). The CMAP is OAM's internal controls 
        program. These internal reviews will be part of organizational 
        self-assessments and peer reviews under the Contract Management 
        Assessment Program (CMAP) to facilitate more robust and 
        independent oversight of the program. The first peer review 
        that included a review of purchase card transactions took place 
        in Region 9 in April 2014. EPA anticipates completing another 
        three regional reviews in fiscal year 2014, and will review all 
        headquarter and regional offices by the end of fiscal year 2017 
        as part of the agency's plan to review the purchase card 
        programs of all headquarter and regional offices on a 3-year 
        cycle. Purchase card reviews, which OAM conducts, are now a 
        permanent part of the EPA's peer review process under the 
        contract management assessment program.
  --The EPA implemented a block of over 130 merchant codes to prevent 
        transactions considered high risk. These include codes 
        considered non-applicable for routine agency transactions. 
        Cardholders must submit supporting documentation to the program 
        for review and override, if appropriate.
  --The EPA will deploy an automated system including an electronic 
        purchase card log with a requirement to document all purchase 
        card transactions agency-wide by September 30, 2014. The system 
        will ensure documented evidence of electronic approvals; 
        provide a record of all purchases made with purchase cards and/
        or convenience checks; allow virtual audits of all purchase 
        card transactions and provide the ability to conduct spend 
        analysis on all purchase card transactions. The agency began an 
        automation pilot with several agency cardholders on March 31, 
        2014.
  --Effective March 18, 2014, the EPA placed a moratorium on the 
        issuance of new purchase card and convenience check accounts 
        while we continue to improve management oversight and internal 
        controls.
  --The EPA is drafting improvements to agencywide standard operating 
        procedures, and minimum documentation required, for each 
        purchase card transaction. These draft improvements were 
        completed and sent out for agency review and comment. The EPA's 
        OAM is currently reviewing comments.
  --The EPA is developing training sessions on purchase card policy and 
        procedures for purchase cardholders and approving officials to 
        address the non-compliance issues identified in the report. The 
        EPA's OAM has also changed purchase card refresher training 
        requirements from every 3 years to every 2 years.
  --The EPA is reviewing the subject audit findings to ascertain the 
        specific areas of non-compliance that need to be addressed with 
        cardholders and approving officials. The agency will institute 
        follow-up actions as appropriate to hold individuals 
        accountable and to recover funds used for prohibited, improper 
        or erroneous purchases identified in this audit. Depending on 
        the severity of the violation, cardholder(s) and approving 
        official(s) in violation of agency policy and/or procedures may 
        have their authority revoked, or suspended pending the 
        completion of this review.
  --The EPA is finalizing its Awards Policy to eliminate the use of 
        Gift Cards and Gift Certificates within the agency.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. Earlier this month, the Governor of Mississippi declared 
a state of emergency in 12 counties due to severe rain and flooding in 
the Pearl River Basin. In 1979, similar weather related events caused 
the Pearl River to flood the capitol city of Jackson, Mississippi, 
which resulted in damages equivalent to $1.3 billion in today's terms. 
To date, Jackson doesn't have a comprehensive flood risk management 
solution and remains vulnerable to flood risk, despite many years of 
efforts between local leaders and the Army Corps of Engineers to 
develop an effective solution. Years and even decades may pass from the 
time the Corps is authorized to study a water-resources related problem 
and when the Corps actually constructs a project, and numerous Civil 
Works actions are subject to outside agency review, consultation, or 
coordination. Additionally, it is my understanding that individual 
projects often take longer than anticipated due to disagreements 
between Federal agencies. In your testimony, you suggest the fiscal 
year 2015 budget request strengthens EPA partnerships with a focus on 
aligning resources, avoiding duplication, and closing gaps in the 
broader environmental enterprise system.
    If Congress provides the amount of funding recommended to be 
appropriated by our subcommittee, will the EPA be able to do a better 
job working with the Corps of Engineers to streamline flood control 
projects and reduce inefficiencies and delays with regard to 
environmental regulations and requirements?
    Answer. The EPA appreciates your concerns over the time it can take 
to plan and construct major flood control projects. This administration 
is committed to expeditiously building a 21st century infrastructure, 
including flood control projects, highways and pipelines, in a manner 
that also safeguards our communities and the environment. Over the past 
year, the EPA has worked closely with OMB, the White House Council on 
Environmental Quality (CEQ), and several other Federal agencies, 
including the U.S. Army Corps of Engineers, to develop a plan that will 
modernize the Federal Government's role in permitting and review 
processes for infrastructure projects. This plan was published on May 
14, 2014, and identifies a wide range of strategies and reforms, with 
both near-term and long-term milestones including improving interagency 
coordination. The EPA's budget request includes funding that will 
enable us to work more effectively with other agencies as they propose 
and review these critical infrastructure projects.
    Question. The Corps of Engineers has indicated the Jackson 
metropolitan area will remain vulnerable to flood risks as well as life 
and safety issues. Currently, the Pearl River is several feet above 
flood stage and is expected to rise. Given the current situation, would 
you be willing to work with the Corps of Engineers and the Rankin-Hinds 
Drainage Control District as they move to find a solution?
    Answer. EPA stands ready to work with the Corps and local 
authorities to provide technical assistance and support to the affected 
communities.
    The Pesticide Registration Improvement Renewal Act was passed in 
2012. It sets a minimum funding level required in order to allow EPA to 
collect registration service fees. However, sequestration, combined 
with a continuing resolution, has required Congress to waive the 
minimum level to allow the pesticide registration program to continue 
to operate.
    Question. Was EPA's guidance to the Congressional committees of 
jurisdiction on the decision timelines included in the Pesticide 
Registration Improvement Act (PRIA) reauthorization based on specific 
funding levels?
    Answer. Yes, EPA's ability to meet the PRIA decision review 
timeframes was based on receiving both the minimum appropriation level 
specified in the law--$128.3 million--and the PRIA fees.
    Question. Has EPA been able to adhere to those timelines given the 
funding that has been provided for fiscal year 2013 and fiscal year 
2014?
    Answer. No, in fiscal year 2013 (the first year of PRIA-3), the on-
time completion rate fell to 98.8 percent due to a fiscal year 2013 
budget cut and personnel furloughs. We expect the partial Government 
shutdown of October 2013, as well as a fiscal year 2014 budget cut, to 
have a further, measurable impact on the fiscal year 2014 on-time 
completion rate. We will be able to evaluate and report that impact 
after the fiscal year ends on September 30, 2014.
    Question. How does this compare to actions under PRIA-I or PRIA-II?
    Answer. During the 3.5 years of PRIA-1 (fiscal year 2004-fiscal 
year 2007), the on-time completion rate was 99.9 percent. During the 5 
years of PRIA-2 (fiscal year 2008-fiscal year 2012), the on-time 
completion rate was 99.3 percent. The table below contains the total 
number of actions completed and the number of those actions completed 
late under PRIA-1, PRIA-2, and PRIA-3.


----------------------------------------------------------------------------------------------------------------
                                                                  # of completed   # of actions     Percent on
                                              Fiscal Years            actions     completed late       time
----------------------------------------------------------------------------------------------------------------
PRIA 1................................  2004-2007...............           4,273               3           >99.9
PRIA 2................................  2008-2012...............           7,892              55            99.3
PRIA 3................................  2013....................           2,084              25            98.8
----------------------------------------------------------------------------------------------------------------


    Question. What would be the impact of funding below $128.3 million 
in future years? Please include impacts that address both inclusion and 
exclusion of a waiver of the minimum appropriation.
    Answer. As stated above, EPA's ability to meet the PRIA decision 
review timeframes is based on receiving both the minimum appropriation 
level specified in the law--$128.3 million--and the PRIA fees. Below 
that level, EPA is increasingly challenged to meet the PRIA timeframes 
as the number of actions increased substantially in 2013. The full 
impact of the current budget will be better understood at the end of 
fiscal year 2014. If, in the future, the minimum appropriations 
requirement is not met, and no waiver of that requirement is provided, 
then EPA's authority to collect PRIA fees would be suspended. The loss 
of PRIA fees, which on average generate about $15 million per year, 
would significantly impact EPA's ability to meet the timelines set 
forth in the legislation. The resulting delays in the pesticide 
registration process impact the ability of food producers to fight crop 
pests and effectively maintain food production.
    Question. In 2012, EPA stated that as a result of beach grant 
funds, the number of monitored beaches in the country has more than 
tripled. The President's budget proposes to eliminate categorical 
grants for the beach protection program. Given the current fiscal 
strain on State and local environmental agencies, what impact do you 
estimate the elimination of grant funds would have on the number of 
beaches monitored?
    Answer. We do not have information about the number of beaches that 
would not be monitored, or would be monitored on a reduced schedule.
    Question. There is growing concerns from a variety of stakeholders 
about EPA's willingness to ``Sue and Settle.'' It is my understand that 
Federal agencies including the EPA, the Fish and Wildlife Service 
(FWS), and the Department of Agriculture are opting not to appeal 
environmental lawsuits in an attempt to regulate rather than litigate. 
I am concerned settlements are being conducted without any transparency 
or public input. Often these settlements can yield new regulations 
imposing costly burden on agriculture, construction, manufacturing and 
other businesses. What is the number of lawsuits EPA has settled in the 
past year and how much EPA paid to resolve these lawsuits?
    Answer. Each settlement agreement is the result of a negotiation 
between opposing parties, with the Department Of Justice (DOJ) 
representing the Environmental protection Agency and the interests of 
the United States. In some cases, the agreements also go out for public 
comment, and are entered by a court only upon a finding that the terms 
are fair, reasonable, and in the public interest, and that the overall 
resolution is consistent with the underlying statute and allegations.
    In fiscal year 2013, the EPA did not pay fees in the settlement of 
any defensive environmental cases out of EPA's appropriated funds. In 
the EPA's most recent ``Attorney Fee and Cost Payments Obligated in 
Fiscal Year 2013 Under Equal Access for Justice Act'' report, located 
in the fiscal year 2015 Congressional Justification, the EPA reported 
12 settlements of defensive environmental cases in fiscal year 2013. 
These payments were all made through DOJ from the Judgment Fund 
administered by the Treasury Department. Total fees paid in those cases 
were approximately $423,267.50.
    The EPA does not and will not commit in a settlement agreement to 
any final, substantive outcome in a rulemaking or other decisionmaking 
process. Rather, in EPA rulemaking, there is an extensive and robust 
public process, designed specifically to provide for input and 
participation. The Administrative Procedure Act (APA) requires the 
Agency to provide public notice and an opportunity for comment on all 
proposed rules. This opportunity to comment is open to any interested 
party and comments submitted are carefully considered and often 
significantly shape the final rule. It is after the conclusion of that 
public process that Agency would publish a final rule.
    Question. I have concerns with EPA's mishandling of sensitive 
information belonging to farmers and livestock producers. It is my 
understanding this wide spread problem affected 30 or more States. The 
EPA has a responsibility to protect the American citizens' personal 
information from government mismanagement. What safeguards has EPA 
implemented to make sure that the personal information of farmers and 
livestock producers is not inadvertently released again?
    Answer. The EPA understands the need to protect personal 
information. The EPA has a Privacy Policy which establishes agency 
requirements for safeguarding the collection, access, use, 
dissemination, and storage of personally identifiable information and 
Privacy Act information in accordance with the Privacy Act of 1974, the 
E-Government Act of 2002, the Federal Information Security Management 
Act (FISMA), and policy and guidance issued by the President and the 
Office of Management and Budget. The EPA also has a Privacy Act Manual, 
which establishes policy and procedures for protecting the privacy of 
individuals who are identified in EPA's information systems. The EPA 
will continue to work together with our Federal partners, industry, and 
other stakeholders to ensure the agency continues to address the 
privacy interests of farmers.
    Question. Section 12313 of the Agricultural Act of 2014 amends 
section 402(I) of the Clean Water Act to reaffirm EPA's longstanding 
policy that Best Management Practices for forest-related activities are 
recognized and pollution discharge permits are not needed for 
stormwater runoff.
    Does EPA commit to implementing this provision as Congress 
intended?
    Answer. Prior to the Agricultural Act of 2014, the EPA revised its 
Phase I stormwater regulations to clarify that stormwater discharges 
from forest roads do not constitute stormwater discharges associated 
with industrial activity and that National Pollutant Discharge 
Elimination System (NPDES) permits are not required for these 
discharges. This is consistent with the Agricultural Act of 2014.
    Question. In what, if any, circumstances would EPA disregard 
congressional intent and in fact require this kind of permitting for 
forestry activities?
    Answer. The Agricultural Act of 2014 clearly directed that the EPA 
shall not require or direct any States to require an NPDES permit for 
runoff from forest roads. The EPA continues to review available 
information on the water quality impacts of stormwater discharges from 
forest roads. In addressing water quality impacts from these roads, the 
EPA will work with stakeholders and State and Federal partners to 
explore flexible, non-permitting approaches under the Clean Water Act. 
The EPA recognizes that effective best management practices exist that 
protect receiving waters and minimize impacts from forest roads.
    Question. The EPA recently announced a proposed rule on waters of 
the United States that identifies exempted agricultural conservation 
practices not subject to Clean Water Act permitting.
    Will this rule give EPA the authority to enter into negotiations 
with the Department of Agriculture related to the technical aspects of 
a conservation practice if a desired water quality benefit is not 
achieved?
    Answer. No, under the interpretive rule and associated Memorandum 
of Understanding (MOU), Natural Resources Conservation Service (NRCS) 
authority to develop conservation practices is unchanged. At the same 
time, however, the agencies' MOU contemplates continued collaboration 
among the agencies, including evaluating the implementation of relevant 
practice standards to ensure they are resulting in anticipated water 
quality benefits.
    Question. Would this new rule give EPA new abilities to usurp the 
expertise of the Department of Agriculture with regard to conservation 
standards?
    Answer. No. Nothing in the interpretive rule changes the roles or 
responsibilities of any of the three agencies. NRCS remains solely 
responsible under its authority for developing agricultural 
conservation practice standards.

                          SUBCOMMITTEE RECESS

    Senator Reed. With no further questions, thank you again, 
Madam Administrator. Thank you, Senator Murkowski. The hearing 
is adjourned.
    [Whereupon, at 10:47 a.m., Wednesday, April 9, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
